<html>
<title> - ADDRESSING GANGS: WHAT'S EFFECTIVE? WHAT'S NOT?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                           ADDRESSING GANGS: 
                     WHAT'S EFFECTIVE? WHAT'S NOT? 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2008

                               __________

                           Serial No. 110-151

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-827 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel

















                            C O N T E N T S

                              ----------                              

                             JUNE 10, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     5

                               WITNESSES

Mr. Charles Ogletree, Jr., Professor and Director of the Charles 
  Hamilton Houston Institute for Race and Justice, Cambridge, MA
  Oral Testimony.................................................     8
  Prepared Statement.............................................    35
Mr. Frank Straub, Commissioner, White Plains Department of Public 
  Safety, White Plains, NY
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Major John Buckovich, Richmond Police Department, Richmond, VA
  Oral Testimony.................................................    64
  Prepared Statement.............................................    66
Mr. Ely Flores, Leadership Facilitator and Teaching Assistant, 
  Los Angeles, CA
  Oral Testimony.................................................    77
  Prepared Statement.............................................    79
Mr. Kevin O'Connor, Associate Attorney General, U.S. Department 
  of Justice, Washington, DC
  Oral Testimony.................................................    83
  Prepared Statement.............................................    85
Mr. Robert D. Macy, Executive Director of the Boston Children's 
  Foundation, Beverly Farms, MA
  Oral Testimony.................................................   111
  Prepared Statement.............................................   113

                                APPENDIX

Material Submitted for the Hearing Record........................   153


                           ADDRESSING GANGS: 
                     WHAT'S EFFECTIVE? WHAT'S NOT?

                              ----------                              


                         TUESDAY, JUNE 10, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Nadler, Jackson 
Lee, Waters, Baldwin, Smith, Gohmert, Coble, Chabot, and 
Forbes.
    Staff present: Bobby Vassar, Majority Chief Counsel; Rachel 
King, Majority Counsel; Mario Dispenza, Majority Fellow, ATF 
Detailee; Karen Wilkinson, Majority Fellow, Federal Public 
Defender Office Detailee; Veronica Eligan, Majority 
Professional Staff Member; Caroline Lynch, Minority Counsel; 
and Kelsey Whitlock, Minority Staff Assistant.
    Mr. Scott. Good afternoon. Good afternoon. The Committee 
will now come to order.
    I am pleased to welcome you today to this hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security to 
discuss what is effective in preventing gang crime and what is 
not.
    This hearing is the latest of several Subcommittee hearings 
we have held to take testimony and counsel from experts in the 
field of justice over this session of Congress for the purpose 
of developing effective crime legislation.
    Today, among our witnesses, we are joined by Professor 
Charles Ogletree, the director of the Charles Hamilton Houston 
Institute for Race and Justice in Harvard Law School. The 
institute recently completed a study and released a policy 
brief in March in 2008 entitled ``No More Children Left Behind 
Bars: A Briefing on Youth Gang Violence and Juvenile Crime 
Prevention.'' The focus of today's hearing will be to discuss 
this study's findings which give the most up-to-date 
information about evidence-based foundations for sound crime 
policy.
    Now working on crimes issues over the years, I have learned 
that when it comes to crime policy, you have a choice: You can 
reduce crime or you can play politics. The politics of crime 
calls for the so-called tough-on-crime approach, such as more 
death penalties, more life without parole, mandatory minimum 
sentences, treating more juveniles as adults or as gang 
members.
    However, we can now show by research and evidence that 
while these approaches score well in political polls, they have 
little to do with preventing crime. Under the get-tough 
approach, no matter how tough we were last year, we have to get 
tougher this year. We have been getting tougher for about 25 
years now, and since 1980, we have gone from about 200,000 
persons incarcerated in the United States to over two million.
    This incarceration binge is not free. The annual prison 
costs have gone from $9 billion in 1982 to over $65 billion a 
year now. Los Angeles County spends about $2 billion a year in 
State, Federal, and local funding to lock people up. In several 
cities in my district, we spend between $250 to $500 per 
citizen. About $750 to $1,500 per child or, if you target for 
at-risk dangerous children, about $1,500 to $3,000 or more per 
child per year locking people up.
    The chart on the left shows where we are in international 
incarceration rates. The United States now is the world's 
leading incarcerator by far. The incarceration rate is seven 
times the international average. The world average of 
incarceration is about 100 persons per 100,000. The average 
rate in the United States is over 700 per 100,000, and in some 
States, the rate goes over 4,000 per 100,000.
    Russia is the next closest with the rate of incarceration 
of about 560. Every other nation is below that, such as India. 
In the world's largest democracy, 36 people locked up today for 
100,000 population; China, the world's largest population, 118 
per 100,000; the United States, over 700 and, in some areas, 
over 4,000.
    The United States has the world's most severe punishments 
for crime, especially for juveniles. Of over more than 2,200 
juveniles sentenced to life without parole all over the world, 
all but about a dozen are in the United States. Some who were 
given their sentence as first-time offenders under 
circumstances such as being a passenger in a car from which a 
drive-by shooting occurred. Examples like this prove that we 
are already tough on crime.
    All States have provisions that allow, if not require, 
juveniles to be treated as adults for trial, sentencing, and 
incarceration for serious offenses. Most juveniles treated as 
adults are convicted actually for non-violent offenses.
    And, again, we are very tough on crime, especially juvenile 
crime, and this chart shows it on a graph, that we are off the 
charts in terms of incarceration.
    And yet crime persists, and it is growing, by some 
accounts, even as we continue to cling to our get-tough 
approach. Still, under some proposals before this Congress, 
such as those who are addressing gangs, we would further expand 
the get-tough approach by punishing conspiracies and attempts 
the same as completion of the crime. This would result in a lot 
more fringe involved individuals being sentenced to harsh 
punishments, such as life without parole.
    And the impact of the focus on touch enforcement approaches 
falls disproportionately on minorities, particularly Black and 
Hispanic children. Many studies have established that when 
compared to similarly situated White children, minority 
children are treated more harshly at every stage of the 
juvenile and criminal justice system.
    I am concerned that policies, such as expanding the 
definition of ``gang'' and expanding big gang databases, would 
only exacerbate this problem, with no impact on reducing crime. 
Without appropriate intervention, these children will be on 
what the Children's Defense Funds has described as a cradle-to-
prison pipeline where many minority children are born on a 
trajectory to prison. When we realize that it is possible to 
get them on a cradle-to-college pipeline, it is tragic and much 
more costly to society in the long run, if we do not do so.
    Research and analysis as well as common sense tell us that 
no matter how tough the law on the people you prosecute today, 
unless you are addressing the underlying reasons for crime, 
nothing will change. The next crime wave will simply replace 
the ones you have taken out, and the crime continues. So the 
get-tough approach has little impact on crime.
    Further, all credible research and evidence shows that a 
continuum of services for youth identified as being at risk of 
involvement in delinquent behavior and those already involved 
will save much more money than they cost compared to the 
aborted law enforcement and other expenditures, and these 
programs are most effective when they are provided in the 
context of a coordinated, collaborative strategy involving law 
enforcement, educational, social service, mental health, non-
profit, faith-based, and business sectors working with 
identified children at risk of involvement in the criminal 
justice system.
    In the face of all of this evidence, it is curious that we 
have continued to rely on the so-called get-tough approach. It 
is my fervent hope that with the testimony and evidence that 
the Subcommittee will hear today that we will change this focus 
of crime legislation from sound bite policies to effective 
legislation. I look forward to working with my colleagues as we 
adopt these proven concepts.
    It is now my pleasure to recognize the esteemed Ranking 
Member of the Subcommittee, the gentleman from Texas, Judge 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    And thank you for holding this important hearing today on 
strategies for combating gang violence.
    My colleague from Virginia and I share deep concern for the 
impact of violent gangs on our communities and our youth. 
Although we may have different approaches for addressing this 
issue, our goal is the same.
    Today, there are nearly one million gang members in 
America--one million. It may be hard for some to appreciate the 
magnitude of this, but when you consider that the total number 
of Navy and Army active duty personnel is 856,000, then it 
becomes a startling figure.
    Sadly, the problem of gang violence in America is not a new 
one. For decades, gangs of all shapes and sizes have exacted 
control of our neighborhoods, brought narcotics and guns to our 
street corners, and instilled fear in our families.
    Street gangs, prison gangs, biker gangs, even border gangs, 
each with different styles and organizations, present a 
daunting challenge for law enforcement. Once thought to be only 
a problem in our Nation's largest cities, gangs have now 
invaded smaller cities and suburban areas, cities like 
Richmond, Orlando, Tulsa, and even my home in Tyler, Texas, 
where nearly 20 years ago a gang task force was implemented 
with sophisticated anti-gang initiatives that had been 
traditionally utilized in Los Angeles, New York or Chicago.
    Equally troubling is that today's gang members are younger 
and younger. Youth gang members commit a high percentage of 
gang murders, robberies, and assaults. According to statistics, 
nearly one in five gang murders are committed by offenders 
under the age of 18. Preventing America's children from joining 
a gang is perhaps the greatest hurdle to stopping the growth of 
gangs.
    In my home state of Texas, rival Mexican drug gangs are at 
war with each other across the U.S.-Mexico border. The Gulf 
cartel and the Sinaloa cartel have turned Laredo, TX, and 
Mexico's neighboring city, Nuevo Laredo, into the most 
significant launching point for illegal drugs entering the 
United States. It has become basically a war zone.
    To protect and expand their criminal operations, these 
cartels maintain highly developed intelligence networks on both 
sides of the border and employ private armies to carry out 
enforcement measures. The Gulf cartel employs a group of former 
elite military soldiers known as Los Zetas. Los Zetas have been 
instrumental in the Gulf cartel's domination of the drug trade 
in Nuevo Laredo. In addition to defending the Gulf cartel's 
terrain in northern Mexico, the Zetas are also believed to 
control trafficking routes along the eastern half of the U.S.-
Mexico border.
    In cities across the country, prevention, education, and 
rehabilitation efforts are being combined with law enforcement 
strategies to provide a comprehensive approach to dismantling 
gangs, prosecuting gang violence, and deterring gang 
affiliation, particularly among young people, but violent 
international gangs, such as MS-13, or border gangs, such as 
Los Zetas, pose a dangerous threat that requires a 
sophisticated coordinated law enforcement response.
    But one tactic must be mandatory, and that is for greater 
border security at a time when the estimates we have heard 
indicate that there may be 70 to 75 percent of gang members 
illegally here in this country, and the estimate we have seen 
and in testimony today, I think, has illustrated that probably 
90 percent of the MS-13ers are illegally here.
    Gangs have evolved from what they were just a few decades 
ago. The answer to the question, ``What is effective to combat 
gangs?'' must evolve as well. One size no longer fits all.
    I welcome our witnesses. Thank you for joining us today.
    And I yield back.
    Mr. Scott. Thank you.
    And we are pleased to be joined by the Chairman of the full 
Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This is important because we have been dealing with gangs 
for decades, if not generations, and there have been unusual 
attempts at it. I am glad there is one of our witnesses with a 
sociological and hopefully a psychological approach that I will 
be very interested in. And, of course, we have our dear friend 
from Harvard Law School, Charles Ogletree, who has joined us on 
many occasions in the Judiciary Committee.
    But I was struck by your observation that unless you deal 
with the underlying causes of crime, we are not going to get 
very far down the line, and, of course, it requires what is 
necessary in all Federal legislative undertakings. You have to 
depoliticize the subject matter. You try to deal with health 
care, and if you do not depoliticize it, you just get different 
groups with their own points of self-interest arguing or 
sharing views with one another, and we will not get anywhere.
    Gangs, of course, frequently have a racial connotation, and 
that is due to, in my view, the fact that it is much easier for 
young people of color to get into an unhealthy relationship 
with law enforcement than anybody else, namely because we are 
still clearing the race situation out of law enforcement and 
out of criminal justice and out of the courts and out of the 
prisons.
    So it does not take a lot of research to realize that with 
some of these notions of how to deal with gangs some wanted 
increased prosecution. We have some bills, I think, still 
laying around. Fortunately, they are in your Committee, so we 
sleep pretty comfortably at night.
    But these bills say, ``Let's crack down on crime.'' 
Everybody says, ``Right on. Well, let's get the gangs first.'' 
And then you get a few young men of color on the corner, and 
they say, ``Well, any association like that, that constitutes a 
gang, and let's break them up right away.''
    And so this kind of simplistic implication of lack of 
education, living in a poor economic community, and then having 
a broken-down education system on top of all of that, and then 
throw in the vast unemployment characteristic--and I used to 
laugh about the unemployment statistics. When they are telling 
you about 6 percent and 7 percent--oh, and in some places, it 
is up to 10--look, there are places inside the inner cities of 
America where there is 50 percent unemployment, 60 percent 
unemployment. There are more people out of work than are 
working.
    And then if you were too academic about this, Chairman 
Scott, you would start saying, ``Well, let's look at the 
technical reasons.'' Look, if you do not have a job, you come 
from a broken family, the education system is not working, the 
police have frequently associated more as your enemy than as 
your friend, and then you say, ``Well, I wonder why they joined 
a gang''--and so we are here to begin the exploration, the 
continued examination, of a very important subject.
    And what this Committee has done--I can say as the longest-
serving Member on it--in the 110th Congress breaks new ground, 
and so we continue this exploration of how we get to the truth 
in this matter, and that is why I am proud to be with the 
Committee today.
    Mr. Scott. Well, thank you very much, Mr. Chairman.
    The Ranking Member is with us today, the gentleman from 
Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    As our children begin their summer vacations, their safety 
is now more than ever on the minds of parents across the 
country, and these concerns are no longer reserved for families 
in large cities. With the spread of violent crime to 
traditionally suburban areas and smaller cities, parents in all 
parts of the United States fear violence in their 
neighborhoods.
    Gangs are responsible for a large number of violent crimes 
committed each year, including homicides. Experts estimate that 
there are more than one million gang members nationwide. In San 
Antonio, Texas, my home town, there are over 4,500 gang 
members, and those are only the ones who have been identified 
and documented by local law enforcement officials.
    As part of our efforts to prevent violent crime and curb 
the expansion of gangs in our communities, we need to address 
the flow of illegal immigration. That is because some of the 
most dangerous gangs in America today are comprised primarily 
of illegal immigrants.
    For example, MS-13 is one of the largest and most violent 
gangs in the country, active in at least 38 States and boasting 
approximately 30,000 to 50,000 members worldwide. According to 
the Center for Immigration Studies, 90 percent of MS-13 members 
in the U.S. are illegal immigrants. In California, 80 percent 
of the gang's members are illegal immigrants from Mexico and 
Central America. In Los Angeles, 95 percent of all outstanding 
warrants for homicides are for illegal immigrants.
    Last week, U.S. Marshals arrested three men in the May 31 
death of Omar Florencio-Vazquez of Manassas, VA. One of the 
three members apprehended, Sebastian Cortez Hernandez, had been 
deported in 2003 after being arrested on gang charges.
    It is clear that many gangs in the United States are 
heavily dependent on the recruitment of illegal immigrants. The 
only way to put gangs out of business is to secure our borders 
and to facilitate deportations. Such approaches may not solve 
all of our gang problems, but they will go a long way toward 
solving many of them.
    We must also look to strengthen our own laws against gang 
members and to beef up sentences both to deter and to 
incapacitate gang members. There is also a special Federal role 
in promoting cooperation and coordination among various 
jurisdictions, especially through task forces and targeted 
grants, because many gangs do not respect communities' borders.
    Mr. Chairman, I thank you for holding this hearing.
    And I want to thank the witnesses for their expert 
testimony coming up shortly.
    Now I yield back.
    Mr. Scott. Thank you. Thank you.
    We have a distinguished panel of witnesses with us today to 
discuss these important issues.
    Our first witness will be Professor Charles Ogletree, the 
Harvard Law School professor of law, founder and executive 
director of the Charles Hamilton Houston Institute for Race and 
Justice. He is a prominent legal theorist who has made an 
international reputation by taking a hard look at complex 
issues of law and working to secure rights guaranteed by the 
Constitution for everyone equally under the law. He has a 
bachelor's degree and master's degree in political science from 
Stanford and a J.D. from Harvard Law School.
    Dr. Frank Straub is a commissioner for public safety for 
the City of White Plains, New York. He has over 24 years of 
experience in law enforcement at the Federal, State, and local 
levels. He is nationally recognized as an innovator, having 
introduced COMSTAT, a concept to improve performance and 
implement innovative community policing strategies. He holds a 
bachelor's degree in psychology, a master's degree in forensics 
psychology, and a Ph.D. in criminal justice.
    Our next witness is Major John Buckovich of Richmond, 
Virginia, Police Department, who brings a wealth of diverse 
investigative, tactical, and organizational experience. He has 
received several medals of honor during his service, including 
the Medal of Valor, the Police Medal, the SWAT Medal, the 
Meritorious Police Duty Award, the Unit Citation, and the 
Excellent Police Duty Award. He has a bachelor's degree in 
applied science from the University of Richmond and is a 
graduate of the FBI Academy.
    The next witness will be Ely Flores, a former gang member 
who has become a talented organizer, facilitator, and public 
speaker. He has worked with many community-based organizations 
in the Los Angeles area, working on community organizing, 
social awareness workshops, facilitation workshops, asset-based 
community development, adultism, leadership development, and 
California legal education. He is working on two educational 
pursuits at this time. He is working on an associate's degree 
in liberal arts from Trade-Technical College in Los Angeles and 
is working toward certification in youth development training 
by YouthBuild USA.
    Our next witness will be Kevin J. O'Connor, associate 
attorney general of the United States. He has a wealth of legal 
experience, including partnership with the law firm of Day, 
Berry & Howard, and served as corporate counsel for the town of 
West Hartford, Connecticut, and as a staff attorney for the 
United States Exchange Commission. He has a bachelor's degree 
from the University of Notre Dame and a J.D. from the 
University of Connecticut School of Law.
    And our final witness will be Dr. Robert Macy, director of 
community services for the trauma center in Boston, 
Massachusetts. He has 20 years of experience doing clinical 
interventions and academic research in the field of behavioral 
health crisis intervention and traumatic incidents management, 
which he has presented at numerous regional, national, and 
international conferences. He has a bachelor's degree from 
Lewis & Clark College, a master's degree in psychology from 
Lesley University, and an advanced graduate degree in cognitive 
neuroscience from Harvard, and a Ph.D. in clinical psychology 
again from Harvard.
    Each of our witnesses' written testimony will be made part 
of the record in its entirety, and I would ask the witnesses to 
summarize your testimony in 5 minutes or less. To help you stay 
within that time, there is a timing device at the table which 
will start with green, go to yellow when you have about a 
minute left, and finally red when your 5 minutes are up.
    And we begin with Professor Ogletree.

 TESTIMONY OF CHARLES OGLETREE, JR., PROFESSOR AND DIRECTOR OF 
 THE CHARLES HAMILTON HOUSTON INSTITUTE FOR RACE AND JUSTICE, 
                         CAMBRIDGE, MA

    Mr. Ogletree. Thank you, Congressman Bobby Scott. I am very 
pleased to be here to testify today.
    This is the first time I have been as far away from the 
clock in testifying, and so I cannot see how much time I have 
left, but I am sure you will remind me.
    I am very happy to be here today, and I wanted to have not 
only my testimony submitted to the record, but also a report 
that we did called ``No More Children Left Behind Bars: A 
Briefing on Youth Gang Violence and Juvenile Crime Prevention'' 
that we prepared this past March, having had the chance to 
examine several bills that were both in the Senate and the 
House.
    My colleagues, Dr. Susan Eaton, David Harris, and Johanna 
Wald----
    Mr. Scott. Without objection, the report will be made part 
of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Ogletree. Thank you.
    Dr. Susan Eaton, David Harris, Johanna Wald, and Daniel 
Losen have been working extremely hard on this topic.
    And I hope there will be at least two important conclusions 
today.
    First of all, there is no one on this panel or in this room 
who supports the idea of gang violence. We all think it is a 
problem and it should be addressed. It is not to suggest there 
is not a serious problem, but the problem is how we have 
addressed it thus far. The money that we have spent on gangs at 
the expense of prevention is just astonishing.
    We have focused on targeted groups, many of them male, many 
of them Black and Brown, and if you look in this audience 
today, you see a lot of young men who have overcome those 
challenges and tell us if we invest in our communities, it 
makes a huge difference in those who will be able to make a 
difference.
    And if we want to solve the problem of violent crime, it is 
imperative that we focus on the gang members and not every 
single person of color who happens to fit the age, the dress, 
the race, and the residential profile. It is too inclusive, and 
it undermines the idea of having a focused and seriously 
addressed criminal justice system.
    I also want to acknowledge the work of Dr. Robert Macy who 
you will be hearing from momentarily who is providing expert 
testimony today, and he supports the most counterproductive 
direction that we can move in. It tells you it is to expand the 
net of offenses for which youths can be prosecuted and 
incarcerated. If we do, he will tell you, we will snare into 
that net those children and teenagers who are neither dangerous 
nor violent, but very much in need of adult guidance and 
direction and opportunities to develop healthy pursuits, 
talents, and skills.
    Moreover, a strategy that will almost certainly target 
children of color who live in the communities that are already 
overwhelmed undermines the very purpose of crime prevention. We 
can prevent these crimes by addressing more systematically, 
more systemically, and more effectively and more costly the 
idea from birth to teenage years giving those children a 
healthy environment, an opportunity to go to school, family 
resources in a community that has programs that addresses them.
    In our report, we outline some of the best practices in the 
country that have been very effective over the past few years, 
and they are there for the Committee to consider.
    And one of the problems that you cannot ignore, this idea 
of sweeping in gangs has led to an onslaught of sweeping in 
Black and Brown males, particularly in places like California 
and in places like the City of Detroit and Chicago and 
Philadelphia and Washington, DC. You can almost take any map 
and see where there is a large conglomerate of African-American 
men or Latino men and see an overrepresentation of criminal 
justice system.
    It is a problem that has been plagued by the absence of 
meaningful educational programs, by a net that is too large, 
and by the absence of any meaningful efforts to address it 
systemically.
    Finally, I would say that our institute is very interested 
and willing and able to assist this Committee in not only 
looking at the data that is available, but also coming up with 
recommendations that will address the concerns of those who 
want to fight crime and fight the criminals and not just fight 
those who are innocent bystanders and who are the byproduct of 
a system whose net is much too large, whose focus is much too 
general, and whose target is largely men of color who are 
African-American and Latino.
    We can address those issues much more systemically, and I 
hope we have a chance to do that during the course of this 
hearing and beyond.
    Thank you.
    [The prepared statement of Mr. Ogletree follows:]
              Prepared Statement of Charles Ogletree, Jr.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Now Dr. Straub?

     TESTIMONY OF FRANK STRAUB, COMMISSIONER, WHITE PLAINS 
         DEPARTMENT OF PUBLIC SAFETY, WHITE PLAINS, NY

    Mr. Straub. Thank you, Chairman Scott and Members of the 
Subcommittee, for the opportunity to testify about White Plains 
police strategies that have reduced violent crime and gang 
activity, improved communication with our young people, and 
built trust in our neighborhoods.
    In 2006, a series of violent events--a fatal stabbing in 
March, a fatal shooting in May, two more stabbings in 
September, and a shootout in the city's largest public housing 
complex--brought the realities of gang violence to White 
Plains.
    In response, the police department increased uniform 
patrols and stepped up enforcement in crime hot spots. 
Detectives identified gang leaders, arrested them and their 
crews. The community policing division conducted home visits, 
interrupting potential violence, and preventing retaliation.
    Police and Youth Bureau representatives met with the 
African-American community and ministers in that community who 
demanded that the police end the violence. At the same time, 
they described incidents that had generated animosity and 
distrust between the community and the police.
    There is no single response to youth violence and gang 
activity. Enforcement alone is insufficient. Long-term 
solutions require comprehensive, collaborative models that 
offer real alternatives, individualized services, support, and 
mentoring.
    We partnered with the North American Family Institute to 
develop and implement a program to reduce youth-involved 
violence and improve community police relations.
    The youth-police initiative brings at-risk youth and patrol 
officers together to discuss race, respect, street violence, 
and gang activity. In role playing, they learn how their 
actions and language can escalate street encounters, and by the 
end of the 2 weeks, the youth and police officers come to 
realize that maybe they are not that different.
    Team-building exercises held outdoors in the heart of our 
public housing complexes generate community interest and 
support. For many residents, this may be the first time they 
have seen police officers positively engaging with youth in 
their neighborhood.
    Step Up, another critical component of our gang reduction 
strategy, is based on DOJ's Comprehensive Gang Model program. 
At-risk youth enter Step Up through police referrals, youth 
bureau outreach, and most recently, young men and women in the 
program have recruited their peers. Once engaged, the youth 
receive individualized case management to address truancy, 
school performance, job skills, teen parenting, substance 
abuse, and other issues. Among the 87 young men and women who 
have participated in Step Up to date, individual risk levels 
and negative police contacts have been reduced by the twelfth 
month.
    The White Plains Police Department's prisoner re-entry 
program, the first in Westchester County, represents a further 
effort to prevent violence. A multiagency team led by the 
police department meets with county jail inmates 1 month prior 
to their release. Social service providers, religious groups, 
and community organizations offer employment, housing, 
education, mental health, and other services. The police 
reinforce the message that criminal activity will not be 
tolerated and discuss repercussions of re-offending. In 2007, 
the re-entry team met with 84 inmates. Only seven have been re-
arrested.
    The White Plains Police Department under my leadership is 
committed to fighting crime on all fronts. Traditional police 
strategies target high-rate offenders, illegal activities, and 
crime hot spots. The community policing division partners with 
the city's youth bureau and community organizations to develop 
and implement programs that target the factors that drive 
violence and gang activity.
    As a result, serious crime has declined by 40 percent to 
the lowest level in 42 years. There has not been a homicide 
since the fatal shooting in May 2006.
    The White Plains Police paradigm confirms that the police, 
through their actions, enforcement, and community building, can 
shape and define the factors that impact crime.
    Thank you for the opportunity to testify and for your 
leadership regarding the youth crime aspect.
    [The prepared statement of Mr. Straub follows:]
                   Prepared Statement of Frank Straub

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Major Buckovich?

              TESTIMONY OF MAJOR JOHN BUCKOVICH, 
            RICHMOND POLICE DEPARTMENT, RICHMOND, VA

    Mr. Buckovich. Chairman Scott and Members of the Committee, 
in response to the rise of violence and gang activity, the 
Richmond Police Department has----
    Mr. Scott. Could you pull the mic a little bit closer?
    Mr. Buckovich. Is that better?
    Mr. Scott. Yes, I think so.
    Mr. Buckovich. The Richmond Police Department has sought to 
develop a focused and comprehensive violent crime and gang 
strategy which addresses the systemic enablers of the crime and 
that will create lasting partnerships with the community and 
our local and Federal law enforcement partners. The key to this 
focused strategy is accountability on all levels of our 
organization as well as from community members and our law 
enforcement partners.
    Two important factors in our violent crime and gang 
strategy which have produced significant results are our Gang 
Reduction Intervention Program, GRIP, and the Cooperative 
Violence Reduction Program, known as CVRP.
    In 2004, the City of Richmond was awarded a Federal grant 
to combat gang violence and the influence of gangs on youth and 
our community. GRIP is funded through a grant from the U.S. 
Department of Justice.
    GRIP has four categories, one being prevention, primary and 
secondary. Prevention includes a wide variety of activities 
that focus on the entire population in high-crime, high-risk 
communities, and the primary prevention strategy for GRIP 
centers around providing a single one-stop service and resource 
center that facilitates effective distribution of services.
    Another part of GRIP is intervention. GRIP incorporates 
aggressive outreach and recruitment efforts that are needed to 
ensure that these high-risk individuals and their families 
receive needed services.
    Another part of our GRIP strategy is directed at 
suppression and re-entry. Where prevention and intervention 
fail, gang leaders are identified and targeted for aggressive 
suppression efforts. Re-entry targets serious and gang-involved 
offenders who face multiple challenges to re-entering their 
community.
    Examples of some of the partnerships and programs under our 
GRIP initiative include a one-stop resource center, after-
school programs, truancy and dropout prevention, gang awareness 
training for both our officers and the community, and directed 
police patrol in the targeted neighborhoods.
    The centerpiece of GRIP has been its partnership with so 
many outstanding organizations, departments, and citizens.
    Crime reduction in the targeted communities in 2007 showed 
a reduction of 25 percent of robbery of businesses, 20 percent 
reduction of robbery of individuals, and a 12 percent reduction 
in aggravated assaults.
    In 2008, we continued on the reductions over the 2007 
reductions. Robbery of businesses have been reduced by 71 
percent; robbery of individuals, by 36 percent; and aggravated 
assaults, by 31 percent.
    To increase communication and coordination of efforts 
between the Richmond Police Department and our Federal 
partners, the Cooperative Violence Reduction Program was formed 
in May of 2005. Member organizations of CVRP include the 
Richmond Police Department, Richmond Commonwealth's Attorney's 
Office, Attorney General of Virginia, United States Attorney--
Eastern District of Virginia, the Virginia State Police, ATF, 
FBI, DEA, and the Virginia Department of Corrections' Probation 
and Parole.
    The CVRP utilizes an intelligence-driven approach to 
identify the most violent neighborhoods and offenders in the 
City of Richmond and then deploy the combined resources of the 
CVRP partners to interdict, suppress, and prevent violent 
crime. The CVRP is a multipronged approach to reducing the 
historically high rate of violent crime in the City of 
Richmond.
    The five prongs that are associated with our CVRP approach 
are: homicide and violent crime prevention, this is designed to 
gather intelligence, identify neighborhoods and target habitual 
offenders using the collective resources of member agencies; 
homicide and violent crime deterrence, which is based on the 
Boston approach of pulling levers; homicide and violent crime 
intervention, which in GRIP is our centerpiece for this portion 
of the CRVP; and homicide and violent crime investigation, this 
prong includes maintaining a fully staffed, centralized, 
homicide and gang unit within the RPD consisting primarily of 
the most experienced detectives; and, finally, homicide and 
violent crime prosecution, our sector prosecutors, this fifth 
and final prong emphasizes the role the prosecutors play 
through their partnership with not only police, but with also 
the community. Community prosecution is achieved in Richmond by 
integrating designated prosecutors into each of our 12 police 
sectors.
    The collaborative efforts of GRIP and CRVP, along with a 
focused sector approach to policing, which not only addresses 
violent crime and gangs, but the systemic enablers of crime, 
have produced significant results in decreases in violent crime 
in the City of Richmond. In 2006, violent crime was reduced by 
14 percent; in 2007, violent crime in the City of Richmond was 
reduced by 10 percent; and year to date, we are at a 24 percent 
reduction in violent crime.
    Homicide decreased from 86 in 2005 to 55 homicides in 2007, 
which was the lowest rate of homicide since 1981. Currently, we 
are on track to meet or go below the 2007 numbers.
    The Richmond Police Department continues to review and 
evaluate its methodology and tactics, endeavoring to remain 
flexible and responsive to changing crime trends and patterns.
    Thank you.
    [The prepared statement of Mr. Buckovich follows:]
                  Prepared Statement of John Buckovich

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Mr. Flores?

 TESTIMONY OF ELY FLORES, LEADERSHIP FACILITATOR AND TEACHING 
                   ASSISTANT, LOS ANGELES, CA

    Mr. Flores. Hello. My name is Ely Flores, and I am from Los 
Angeles, California.
    As a child, I was abandoned by my father, and I grew up in 
both the City of South Hollywood and South Central Los Angeles, 
an under-resourced, oppressed community where more youth are 
sent to prisons rather than rehabilitations--or to college, for 
that matter.
    Our mothers were so overwhelmed they could do little to 
prevent us young men from searching for other means of sense of 
belonging in the streets. That led us to straight to prison and 
some of us even jail--or even death.
    Violence was my learned resolution for all the challenges I 
faced. Like many young people who grew up in poor communities 
and disenfranchised communities with few opportunities, I lived 
by the law of dog eat dog and the survival of the fittest.
    I raised my fists in violence over nothing. Maybe someone 
made fun of my shoes or clothes. Perhaps someone talked 
negatively about my mom or my sister or my brother. Perhaps 
someone challenged my so-called manhood. A fight was always the 
conclusion. Where I am from, being scarred and bruised was like 
wearing military stripes on the battlefield or won on a 
battlefield. Whenever the pain was too much to bear, many of us 
chose to take a dose of marijuana or whatever drug relieved 
that pain. The older gangsters found it fun to pit kids against 
each other, instigating little disagreements that escalated to 
a fight. Violence was commonplace. It was entertainment and, to 
us kids, it seemed normal.
    Violence plus the lack of resources and a dearth of 
opportunity made it easy for me and other kids to pursue 
fantasy lives, to emulate gangster lifestyles and drug dealing. 
My brother and I slipped into that. I have been in situations 
where I was forced to fight individuals for claiming or stating 
their membership to another gang that we did not get along 
with. My anger and violence led me to use weapons to hurt 
people. I conditioned myself to not care whether or not my 
victim ended up in a hospital--or, for that matter, ended up 
dead. The same rules my homies and I lived by also ruled the 
people that I thought of as my enemies.
    One of the experiences that changed my life was when one of 
my homies was shot dead at the age of 14. He used to be a 
skateboarder. He always promised that he would never join a 
gang. But one day the peer pressure and lack of other options 
got the best of him. He joined the local gang, and a month 
later, he was shot and killed right outside of my grandmother's 
house. That cycle continued with years of retaliation.
    As I began to develop my consciousness about social issues, 
I asked myself, ``Why are there so many poor people in prisons 
and especially Black and Brown people in prisons? And why do 
they keep going back? Is it the people's fault, is it the 
communities' fault, or is it the parents' fault?'' Then I 
realized that I was trying to come up with an answer from an 
oppressed and deficit perspective.
    Of course, there has to be some accountability for the 
people, but there also has to be accountability for the 
institutions that contribute to the problem and do not help to 
solve the problem. It affects not just young people caught up 
in a cycle of violence and deprivation, but the entire society 
in which we live in. South Central Los Angeles is already a 
poor community, but continuously prisons and police continue to 
criminalize the many communities of color.
    I found an organization called LA CAUSA YouthBuild, which 
is an affiliate of YouthBuild USA, a grantee of the U.S. 
Department of Labor's YouthBuild Program, and introduced to me 
a positive program, a program of consolation, self-
accountability, and leadership.
    Because of this key I was given, because of this 
opportunity I was given, I became an activist. Because of this 
key, I have developed a passion for community work and helping 
numerous people in diverse and challenging communities.
    This opportunity was rarely given to people, but it was 
given to me. Because of this opportunity, I have been able to 
not only get recognized by a Member of Congress, to not only be 
recognized by the City of Los Angeles, but it also has given me 
a chance to even travel to places like Israel to try to work 
with Palestinian and Israeli youth. I just try to bring peace 
among them.
    So I want you to imagine that, like an ex-gang member who 
lived by violence, who acted in violence against other people, 
and I could sit here and tell you that I am actually now an 
activist or an advocate for peace, not only here in Los 
Angeles, but in Israel.
    So, when you think about developing some sort of programs 
or allocating money, think about my story, right. Think about 
that, a gang member that is sitting here right in front of you 
that could have been incarcerated, could have been dead, and 
because of resources and opportunities that were given to our 
community, I can sit here and tell you that a gang member can 
become a productive member of society and a gang member can 
become an advocate for peace and an advocate for justice.
    Thank you.
    [The prepared statement of Mr. Flores follows:]
                    Prepared Statement of Ely Flores

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Mr. O'Connor?

 TESTIMONY OF KEVIN O'CONNOR, ASSOCIATE ATTORNEY GENERAL, U.S. 
             DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. O'Connor. Thank you, Chairman Scott, Ranking Member 
Gohmert, and Members of the Subcommittee. I am pleased to be 
here with you today to discuss the Department of Justice's 
strategy to address the problems of gangs and gang violence.
    I would like to begin by noting that the data released just 
yesterday from the FBI indicates the country experienced a 
decrease in the number of violent crimes for 2007 compared to 
2006. Much of the credit for this decrease, of course, goes to 
our local and State partners, many of whom are represented here 
today, as well as to local and community leaders, faith-based 
leaders and their communities, who are working tirelessly to 
address the problem of violent crimes and gangs in their 
communities. I applaud their efforts, the department supports 
their efforts, and we in the department will continue to be 
vigilant and support their efforts to fight violent crime.
    Notwithstanding the recent good news, the department will 
not take its foot off the gas pedal, if you will. We will 
continue, as we must, to be proactive in combating gangs, and 
we remain fully committed to implementing strategies to fight 
violent crime, focusing not just on traditional law 
enforcement, but, as many here today have noted, also working 
with our community partners to provide opportunities for at-
risk youth and returning offenders to learn the skills and 
attitudes that they need to become productive members of 
society.
    The department's comprehensive approach to gang and gang 
violence centers briefly on three key areas: enforcement, 
prevention, and prisoner re-entry.
    One example of this approach is the department's 
comprehensive anti-gang initiative. This initiative targets 
communities plagued by gang violence through the prosecution of 
the most significant gang members, intense prevention efforts 
employing local strategies to reduce gang membership and 
violence, and re-entry strategies that create mentor-based 
assistance programs for prisoners re-entering those communities 
upon completion of their sentences.
    Currently, the initiative operates in 10 jurisdictions 
across the country with each jurisdiction receiving a total of 
$2.5 million in targeted grant funding. This amounts to $1 
million for enforcement, $1 million for prevention, and half a 
million dollars for re-entry programs. As you can see, well 
more than one-half of the funding in each of these sites is 
dedicated to prevention and re-entry.
    Another good example of this comprehensive approach to gang 
violence is Project Safe Neighborhoods, a national program 
which targets the most serious violent criminals with 
aggressive enforcement of our Federal and State firearms laws. 
Under Project Safe Neighborhoods, the Federal Government 
through this Congress has committed more than $2 billion to 
fund more than 200 Federal and 550 State and local prosecutors 
to prosecute gun crime.
    I should add the money has also been used to support 
training for more than 30,000 law enforcement officers, 
prosecutors, and community members across the Nation to develop 
effective prevention and deterrence efforts to reduce gang and 
gun violence.
    Our efforts, as you can see, are not limited to prosecution 
of gang members. At the direction of the attorney general, 
every United States attorney, including myself when I had the 
pleasure of serving in Connecticut, convened a gang prevention 
summit in their district that collectively brought together 
over 10,000 law enforcement and community leaders to discuss 
best practices, identify gaps in services, and create a 
prevention plan in their particular districts to target at-risk 
youths within our communities.
    The department has long supported other gang prevention 
activities, such as the Gang Resistance Education and Training 
Program, GRIP, as my colleague Major Buckovich referred to, as 
well as many other gang prevention strategies.
    The third component of the department's gang strategy is 
funding and support for prisoner re-entry programs. These 
programs provide services and supervision for gang members, in 
particular upon their release from prison. The goal of this 
initiative is to connect community organizations with law 
enforcement to provide much needed services tailored 
specifically for prisoners re-entering their communities.
    In order to reduce violent crime, the Federal Government 
must work cooperatively and collaboratively with our partners 
in State, local, and international law enforcement. We must 
also, as it is very clear by today's hearing, focus not just on 
dealing with today's criminals, but on preventing our children 
from turning into tomorrow's criminals.
    Thank you, again, for your attention to this issue, and I 
look forward to taking your questions at a later time.
    [The prepared statement of Mr. O'Connor follows:]
                  Prepared Statement of Kevin O'Connor

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    And Dr. Macy?

 TESTIMONY OF ROBERT D. MACY, EXECUTIVE DIRECTOR OF THE BOSTON 
            CHILDREN'S FOUNDATION, BEVERLY FARMS, MA

    Mr. Macy. Thank you.
    I want to extend my gratitude to the Chairmen and to the 
Members of the Committee and to my esteemed colleagues. It is 
an honor to be here.
    I thought, given Chairman Conyers' comment around 
sociological perspective, I would take that up as a potential 
lens to maybe stimulate some further conversation as we go 
along today.
    I see two major domains involved in what I would consider 
to be one of the top two or three public health crises in our 
young 230-year-old Nation, and that is this issue that you are 
committed to looking at today and hopefully beyond.
    The two primary domains are public safety, which I think 
has been established through our other witnesses to be of prime 
importance and cannot be ignored, and the second domain is what 
I could call social capital. I learned this term from the World 
Bank. It refers to our children, to our future leaders, and not 
only our future leaders, but to the people that actually run 
the country at the basic human, community, religious, cleanup 
level.
    Within these two domains, we have to consider at least five 
huge challenges which are complexly layered, as was pointed out 
by the two members from Texas with respect to immigration, and 
what I would consider to be racketeering, organized crime 
groups--MS-13, which is actually a non-profit organization, 
established private 501(c)3s in 38 States--and, of course, the 
border gangs. We really cannot compare those to what are called 
sneaker pimp gangs and younger youth gangs around America.
    But we have this issue of protecting public safety which 
primarily is at this point using arrest and incarceration, and 
there are some key issues here, as I just pointed out, with 
respect to illegal immigrants, and ICE is doing quite a good 
job and, I think, needs to certainly be applauded for what it 
can do and may be able to be brought in to look at some of the 
violent gang activities with respect to illegal immigrants.
    The second are the costs of arrest and incarceration versus 
costs for alternative measures to decrease violence among 
youth. And I just want to point out that I am not as familiar 
with some of the criminology data that some of my esteemed 
colleagues are, but I think if we were to use and look at age 
breaks and the decrease in violent crime, you might not 
necessarily see the same decrease in the 15-to-23-year-old age 
range, and that is part of the issue.
    Mr. Scott. Say that again. Sorry.
    Mr. Macy. I would just say that as a Committee and as 
associates of your Committee, you probably look at the age 
break of 15-to-23-year-olds, when we talk about the overall 
reduction in criminal acts for aggravated assaults for youth 
the year 2007, because I am having an educated guess that it 
may actually have increased.
    Our third issue is what is known as the DMC which Professor 
Ogletree's written testimony provided. That is the 
Disproportionate Minority Contact which Congress is well aware 
of, in view of the 2007 Federal Advisory Committee on Juvenile 
Justice, and it has been pointed out here on these charts and I 
think it has been brought up in several of your comments during 
the introduction.
    The fourth issue is elements of the youth offender, him or 
herself, and several people have mentioned this. We have to 
look at not just the crime, but the criminal. And I would refer 
to a gentleman named Arredondo who wrote a seminal article in 
juvenile justice on looking at offender-based sanctioning 
versus offense-based sanctioning. I think that is going to be 
critical as we move forward.
    And fifth is the relationship between trauma and violence, 
which is what I would like to spend the rest of my time on, 
which looks like it is not very much, and that is that we have 
$90 billion a year spent on child maltreatment. This is 
determined by the U.S. Surgeon General's 2005 report. So one of 
the questions I pose to all of us: Is increased sanctioning, 
severe sanctioning, actually feeding into child maltreatment?
    It appears from the overwhelming research, high-fidelity 
research, among many different investigative domains that 
children grown in impoverishment without resources first 
experience trauma, and in order to survive, they use 
maladaptive coping strategies, that is, they try to protect 
themselves. You can do this with your own son or daughter. 
Irrespective of the color of their skin, they want to get to 
school and they want to pass the test and they want to belong 
and they want to become.
    But, in order to get to school, they are called a wannabe 
gang member. They are not involved in gangs yet, but they get a 
gun or they get a knife. They do not really know how to hide 
it. They get tagged. They end up with a felony. They end up not 
being able to vote, and they end up being incarcerated at quite 
a great cost.
    So, in summary, I think public safety and social capital 
are of equal value, and we have to hold them as of equal value, 
both for public safety and the development of our social 
capital, the protection of our children.
    And I would like to end with a quote by Black abolitionist 
and escaped slave Frederick Douglass who said, ``It is easier 
to build strong children than to repair broken men.''
    I think we have several approaches that are evidence-based, 
some of them registered in the National Registry of Evidence-
Based Practices that would speak to the issue of using 
treatments that are biopsychosocially driven rather than 
treatments of incarceration.
    Thank you.
    [The prepared statement of Mr. Macy follows:]
                  Prepared Statement of Robert D. Macy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    And I want to thank all of our witnesses for this great 
testimony.
    We will ask questions using the same 5-minute rule. I will 
recognize myself for 5 minutes.
    I notice in all of the testimony that we did not hear any 
need for new statutes, any gang-related statutes. It would seem 
to me, Major Buckovich, if you catch somebody in a drive-by 
shooting, the penalty for that will be life. If you dress it up 
and call it a gang-related drive-by shooting, does that help 
you?
    Mr. Buckovich. Thank you.
    My response to that would be the Richmond Police 
Department, whether it is a gang-related or non-gang-related 
shooting, investigates with the same amount of energy and 
aggressive investigative techniques as we would any type of 
shooting.
    However, I believe that enhancements to certain----
    Mr. Scott. But would you get more time if it is dressed up 
as a gang-related drive-by shooting as a regular drive-by 
shooting?
    Mr. Buckovich. If someone was killed or injured?
    Mr. Scott. It is the same life.
    Mr. Buckovich. Yes.
    Mr. Scott. Okay. And if we are going to do something about 
gangs, dressing up the criminal code does not appear to be what 
we need to do to reduce gang membership because by the time you 
get to the point of sentencing, they have already joined the 
gang, committed the crimes, got court, got convicted, and now 
you are arguing about how much time they are going to get when 
the criminal code--according to this chart, you are doing 
pretty good. The police are doing a pretty good job, and we 
have locked up more people on earth than anywhere.
    Those brown charts show what we are doing in the minority 
community compared to the rest of the world. It just does not 
seem that changing the criminal code would be a necessary 
element. Maybe more enforcement of the present criminal code, 
but the criminal code itself has produced this chart where the 
United States, and particularly the minority community--the 
first brown chart is the average African-American incarceration 
rate. The second brown chart is the top 10 States. Many States 
are around 4,000 per 100,000 locked up today when most of the 
world is around 100. So it seems as though the criminal code 
seems to be working pretty good.
    Dr. Macy, your testimony talks about the effect of getting 
real tough on gangs as being possibly counterproductive. What 
do you mean in terms of helping with gang membership, getting 
kids out of gangs? What did you mean by that?
    Mr. Macy. Thank you.
    I think the more generalized issue, which is critical for 
all of us, is young children face a pretty significant decision 
early on because, as you all know with your own children or 
grandchildren, their primary question is: Who do I belong to? 
Who belongs to me? How do I become?
    And so children actually seek permission for many things, 
including to kill, and this certainly has been demonstrated in 
David Grossman's work, ``On Killing.'' In fact, children face a 
difficult decision when they offer their permission to someone 
to tell them what to do.
    So, right now in this country, many of the disadvantaged 
children, which we call at risk, are faced with a decision like 
Ely was, which is: Do I give my allegiance, do I actually give 
my permission to have someone tell me what to do to a gang or 
leadership authority structure organized around violence, or do 
I give it to a gang or leadership authority organized around 
justice, peace, democracy?
    And so if we sanction children too young and too hard, what 
usually happens, in my personal field experience and in the 
research, is that they end up giving their affiliation, their 
permission to an authority structure that is organized around 
violence.
    The second issue is that if you take a kid and you bring 
them into jail, irrespective of all the sort of old-timer 
stories about how kids learn more crime in jail, there is a 
more significant issue. As we increase arrests and use felony 
charges to keep kids in jail, in order for them to stay alive 
in jail, especially the younger ones, they have to swear their 
allegiance to a gang for protection, and then they owe that 
gang when they get out. So we are actually increasing gang 
membership by this methodology, I believe.
    Mr. Scott. And, Professor Ogletree, what does a get-tough 
approach do to gang cohesiveness?
    Mr. Ogletree. Well, it makes it even stronger, and that is 
what surprised me a little bit by Mr. O'Connor's comment that 
the Department of Justice better not take its foot off the gas 
pedal. It seems to me at some point you take your foot off the 
gas pedal to see what you are doing and whether you are making 
any progress and, in fact, some of these get-tough-on-crime 
policies, as we indicate in our report, only lead to the 
contrary result.
    I am not sure you can say you have succeeded because you 
have more people in prison, but you have not solved the problem 
of young people being able to be productive members of our 
community, and I think that what we need to do is to do what 
has been successful.
    All these departments--White Plains--these are East and 
Northeast, and Richmond's southern--people take the time to 
figure out how to work with communities, how to work with the 
clergy, how to work with the young people are creating 
remarkable changes. Both what Ely said about his own experience 
and what you heard is that if you give a child a chance, it 
makes a difference, and if you do not, you are going to find 
more people incarcerated, but you are not going to find the 
problem of violence reduced or seriously addressed.
    Mr. Scott. Thank you.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    We are all concerned about the same problem. Everybody has 
come at it from a different position.
    Mr. Flores, we appreciate what you have been able to do 
with helping and caring for people.
    We have a number of questions to ask, but, folks, I am not 
going to ask questions because I did not hear anybody get to 
the heart of what I heard over a decade of sitting on the bench 
over thousands of criminal cases. I started taking my own 
little survey for 3 months, for a quarter. I randomly picked 5 
years of age. Way over 80 percent, nearly 85 percent, of the 
people that came before me for sentencing on felony cases had 
had no relationship with a father since at least age 5.
    Mr. Flores, your testimony started off, and you prepared 
your testimony, I take it. You chose to start off by saying, 
``I was abandoned by my father.''
    Dr. Macy, you pointed out people are looking to belong.
    In our society, there ought to be societal pressure to be a 
father, and I know that some of the greatest contributions in 
this country have come from people from single parents and will 
continue to come from people from single-parent homes, some of 
the major problems have come from people with two parents, but 
we are----
    You know, I saw in this testimony here, Dr. Straub, the 
statement ``Incarceration breaks up families and disrupts 
social networks,'' and I am thinking breaking up families? It 
is about incarceration.
    I was sentencing a young man who was a gang member, and he 
just poured out his heart. And he had been stoic. You could not 
tell hardly when he was lying because he was so cold and cool. 
But, clearly, the evidence showed beyond a reasonable doubt he 
was involved in a murder, and he talked about he had no father. 
His mother was never around. He wanted to belong to something. 
His gang was his family. He felt safe with his gang. That was 
his family.
    Now it concerns me that with all your expertise and with 
all the brilliance and the high IQs sitting here in front of me 
that we are not talking about that, that the societal pressure 
ought to be there to be a good father, do your best to succeed. 
You know there ought to be pressure to do well in school.
    You know, for far too long, in my criminal court, over and 
over, people came before me and they said the pressure from 
those they hung around with was, ``Do not succeed. Do not sell 
out.'' The pressure ought to be there to succeed in school, to 
do well, and I am just afraid we are not talking about an 
elephant in the room, the societal breakdown of the family.
    In 1973, I was an exchange student in the Soviet Union, and 
I was taken to numerous daycare centers as a point of pride 
because they pulled the kids--there were eight Americans there 
that year. We were told, ``The Government knows best. We have 
these Government programs for raising the kids. The parents 
cannot always be trusted. So, as soon as they are old enough to 
walk--and in some cases before that--we get them in here in our 
daycare centers so we can start working on them.'' Highest 
alcoholism rates anywhere in the world is what I understood. 
The Government was not the answer.
    So I welcome input. My time is about up. And 5-minute 
little blurbs does not really do it for any of you with your 
vast amount of research. I would welcome input from any of you 
in writing after the hearing, but I am afraid we are not 
addressing an important societal problem here, and that is the 
breakup of the family and kids just wanting to belong.
    I yield back.
    Mr. Scott. Thank you.
    The gentleman from Michigan?
    Mr. Conyers. Judge Gohmert touched on something that Maxine 
Waters and I were commenting on, is that--and you have done 
this yourself, Chairman Scott--and we need a different setting. 
This is too formalized and ritualistic. You have had forums on 
crime where we sat in a different relationship--this is a 
bureaucratic legislative hearing about something that touches 
the nerve endings of us all--where we sit around and everybody 
could chime in and interrupt and agree or disagree, and I know 
that Professor Ogletree has been in these kinds of sessions 
that we have had not only in the Congress but around the 
country and at Harvard as well, come to think about it.
    But let me tell you what I am thinking about. A lot of this 
has to do with belief systems, and they start out early. 
Sometimes we do not make much progress as quickly as we want 
to, but I have begun to think that in this country, at this 
point in time, we are beginning to get more honest and 
realistic about the nature of race relations and the cultural 
considerations that are all a part of it.
    I think of Martin Luther King--and now after more than a 
dozen years it took to get the King holiday bill--where a 
person got up and said, ``Non-violent protests can win the 
day.'' Now that is still coming out of a culture, a background, 
Ogletree, that is crazy. We spend more money on not only 
weapons of destruction. I think it was $1.3 trillion worldwide. 
And we have huge research activities going on, more in this 
country than any other, where we are developing new weapons. We 
are now out in space.
    So, when you come back then and say, ``Well, you know, King 
was one of the great leaders of all time. You do not 
understand, Congressman, his non-violence theory,'' and I say, 
``Hey, wait a minute.'' We have a culture of violence that has 
been from the beginning of time. That is the way things always 
were.
    It was not until Roosevelt and Churchill came along at the 
end of World War II that we said, ``There ought to be treaties 
against torture, and there ought to be treaties''--then we came 
to nuclear non-proliferation treaties. Then we came to war 
crimes tribunals.
    Now that sounds maybe far away from the subject of gangs, 
but, you know, when you are looking at our video, television, 
and our cultural recreational things, you get into some serious 
problems where kids have seen 1,500 murders on television 
before they are 12 years old. Then you say, ``Well, why did you 
join a gang, Tommy?'' and he looks at you like you must be on 
another planet. What do you think most of our recreation is 
about? Crime. Law and order.
    And I would just like to get a reaction from Professors 
Ogletree and Macy on this, if my time permits.
    Mr. Ogletree. Congressman Conyers, I mean, you hit the nail 
on the head, and I am very impressed with the analysis of 
connecting all these things together. It is exactly right.
    We have a culture of violence. It is embedded in our 
culture, and at the same time, we do not even recognize the 
fact that as a democratic progressive Nation, if you look at 
this chart, I mean, we are off the charts in terms of promoting 
violence. It is part of our culture, and it goes to the 
question raised by Congressman Gohmert as a judge, and I can 
see the challenge as well.
    I think Dr. Macy hit the nail on the head as well when he 
talked about social capital. If you care about children, you 
care about families, and if you and I sat down in a room with a 
door locked for half a day, we could solve it. For example, I 
would tell you that there are a lot of fathers already there.
    Mr. Gohmert. You would need someone a lot smarter than me.
    Mr. Ogletree. Oh, no, you are exactly what is needed. It is 
not a question about intelligence. It is about a sense of moral 
courage.
    And those fathers who are not there, some of them are not 
there because they are dead. Some are not there because they 
are incarcerated before. They cannot get a job. They cannot 
help the family. They cannot go back to school. They cannot get 
a driver's license. So that is social capital as well, not just 
the children, the family.
    I agree with you about the importance of two parents, but 
it is not that they do not want to be there. We have created an 
infrastructure that prohibits them from being a part of a 
family, and if we really solve the gang problem, the violence 
problem, we have to say that man who has been in prison, has 
been released can paint a fence, can cut some grass, can be a 
taxpaying, wage-earning citizen, and not a recidivist.
    That means we are looking at a holistic problem. If we take 
that up--and then we will address Congressman Conyers' problem 
because--if we look at it holistically, at social capital, not 
just a child, but also the adults, we could begin to address 
this. But we have not even scratched the surface of it. We look 
at the symptoms and not the problem.
    Mr. Macy. I agree with the professor, Mr. Conyers. I think 
you are on track, and I think connecting the dots are 
important. I did that in my written testimony in terms of the 
global violence with respect to what is called identity 
conflict, which is age old, but has really arisen to astronomic 
proportions in the last 15 years.
    I think I might as well say what I think the white elephant 
in the room is, and I say it with the greatest respect for all 
of us who are struggling really with very difficult, complex 
challenges. It is very hard to legislate good parenting. I 
think there should be a taboo against poor parenting because, 
you know, it is very, very difficult.
    The professor speaks to some proportion. I would give an 
educated guess it is more than 50 percent of fathers that want 
to be fathers, especially after the age of 25--the 
developmental psychopathology literature points that out--are 
in jail. So it is hard for them to father.
    But the white elephant I was referring to is slavery, and I 
have part of this proven. I do not have the whole thing proven, 
but I tried in my verbal testimony to link trauma as the root 
cause of violence as opposed to saying violence causes trauma. 
Psychological trauma appears to be one of the root causes of 
violence, violence as a way to protect one's self in an unsafe 
world.
    The unsafe world was created by trauma which is really a 
psychological shattering of the whole human being. And how did 
that come about? If we look at the history certainly of our 
country and then you look at these graphs here, we do have an 
issue, which I think we cannot avoid, which is slavery, and the 
enslavement of these young men is in a sense a recapitulation 
of that.
    And then what I have been looking at in working with the 
gangs is that a gang is just another form of imprisonment. It 
is no better being in a gang than being in a prison. It is 
just--now you can call it a secondary form of enslavement where 
young men do unto others what was done unto them only better.
    They ask for allegiance to violence and to destruction, and 
it is really the destruction of the fatherhood in the family 
because most of these gangs are males instead of seeking out an 
authority that allows them to pursue justice and peace.
    Mr. Scott. Thank you.
    The gentleman from Virginia?
    Mr. Forbes. Thank you, Mr. Chairman.
    I want to thank all of you for being here and echo what 
everybody has said in that I think each of you have an enormous 
amount of wisdom and expertise in this area, but I do not 
think, and I have never thought that the forums that we utilize 
are the correct ones. This is not the first time we have raised 
this.
    I mean, just look at the logistics of what I have here. I 
have six wonderful witnesses that I would love to delve into 
what you say and pick out the good parts because this whole 
thing is a matrix. It is not just, you know, that Mr. Ogletree 
is right, Mr. Flores is wrong. It is a matrix that we need to 
pull together, but I have six of you. I have 5 minutes. That 
gives me 50 seconds each. It would be insulting to you for me 
to even try to begin to do that.
    But let me just tell you that I am at least glad that we 
recognize that we have a gang problem because a few years ago 
when I brought legislation here--it was not perfect--
legislation to try to even talk about the gang problem, some of 
my good friends over here said, ``We do not have a problem. 
Where is the problem?''
    And I will tell you we would go to school districts, and I 
would talk to school superintendents, and I would say, ``You 
have a gang problem.'' They said, ``We do not have a gang 
problem.'' The next day, I would have the assistant or deputy 
superintendent coming in my office, ``We have a big gang 
problem, but we cannot talk about it because we will offend 
somebody or perhaps it will hurt our real estate values,'' or 
whatever.
    I am just excited that we at least can come together and 
talk about the fact that we have a gang problem.
    The second thing is my good friend and Chairman of this 
Committee asked this question: Do you want to reduce crime, or 
do we want to play politics? There is not--I do not think. I 
have not seen the person. I do not think there is a person in 
this room that does not want to reduce crime.
    If there are, I have not met them. I do not know who you 
are. But I do not think there is a person in here, I do not 
think there is a person on the other side of that aisle that 
does not want to reduce crime. I know that I have no person on 
this side of the aisle.
    But what we do is if somebody disagrees with our approach, 
we label whatever they want to do as playing politics, instead 
of recognizing that we have to create this matrix to be able to 
come together and create a solution.
    The other thing that we have talked about is the fact that 
incarceration is not free. No one in this room is foolish 
enough to think that the cost of incarceration is not through 
the roof, but the other thing we at least need to put on the 
table is the fact that letting gang networks run free is not 
free either because we have had overwhelming testimony before 
this Committee of people whose lives have been transformed in a 
negative way because of gang networks that came in.
    We had one lady that I think all of us have seared into our 
mind. She lived in Philadelphia. She was an African-American 
woman who had, I believe, five children, but I might be wrong 
on there, lived in Philadelphia, left Philadelphia because she 
was afraid of the gangs that were there, went to Maryland to 
escape the gangs in Philadelphia, put her children in private 
school to try to avoid it. Her and her husband worked two jobs. 
He was a minister, part-time, took another job.
    A gang member, 17 years old, comes up to him one night, 
puts a gun to his head, and kills him, never met him before, 
but killed him for one reason. That was his initiation into a 
gang. And when you looked at her, she realized that letting 
that gang member run free to kill her husband was not free to 
her and her children either.
    We need to recognize that these gang members, some of them, 
are going out and they are cutting people's larynxes out in 
northern Virginia, they are cutting their arms off, they are 
murdering witnesses, they are doing extortion, they are 
recruiting innocent children, and I will tell you I remember 
the head of one of the gang units in Maryland, Mr. Forest, he 
said exactly what you did. He was a former MS-13 member who had 
transformed. Now he is out trying to stop gangs.
    He told me in a summit that we had in Arkansas, he said, 
``Do you know the group that fights against me the most when I 
am trying to get kids out of gang?'' He said, ``You will never 
guess.'' And I said, ``Who is it?'' He said, ``The mothers. The 
mothers who are trying to keep their children in gangs because 
they want the money flow coming in.'' And he had transformed 
his life.
    Now the other thing that I think is we play politics when 
we start putting things in categories and say, ``This is a get-
tough approach,'' where I guess the alternative is a get-soft 
approach. I mean, the reality is we have to pick and pull the 
tools that we need to deal with some of these problems. It is 
easy to reach in our quiver of arrows and pull out the common 
ones and say, ``Oh, look, it is unemployment. It is 
dysfunctional families. It is small groups of innocent kids 
from street corners.'' We are all against those.
    But here is the other thing that we need to recognize. In 
the 1960's when we went after organized crime, we could have 
done the same thing by just saying, ``People just want 
prostitution. People want gambling. People want drugs.'' 
Fortunately, we did not do that. We went after the networks and 
pulled those networks down very successfully.
    So what I am just suggesting to you--and I know my time is 
out. That shows how little we have. But I just want to tell you 
this. We need a combined approach that begins by tearing down 
these networks because these networks are out here recruiting, 
and I do not care what you do, those networks of people are 
going to continue to recruit, continue to do some of the things 
that we see.
    We also need to understand that it is no less fatal to have 
a murder by a 17-year-old than to have a murder by an 18-year-
old.
    And the other thing that we need to realize is that when 
you have at least sometimes in some of our most violent gangs 
80 percent of the members coming in here illegally, then some 
of the prevention programs that we know work and we want to use 
are not going to work for that particular gang.
    The final thing is--of course, I could not agree with you 
more--I think gang members can be transformed and changed, but 
some of the most effective agents of change are some of our 
faith-based organizations that are going out and changing 
people, and yet we strap their hands every time we get a chance 
instead of letting them do that change.
    And the final thing I think we need to do is recognize that 
we need a combined program that brings the best of all these 
tools together so that we can pull down the networks and then 
so that we can deal with some of the other problems that cause 
people to join gangs, be it unemployment, dysfunctional 
families, lack of self-esteem, racial tensions, whatever they 
are.
    Unless we get that comprehensive approach, I do not think 
we are going to be able to make a big dent in this problem.
    Mr. Chairman, I yield back. Thank you for your patience.
    Mr. Conyers. Mr. Chairman? Mr. Chairman?
    Mr. Scott. The gentleman from Michigan?
    Mr. Conyers. Might I beg your indulgence to allow the six 
witnesses to just briefly reflect off of Randy Forbes, the 
former Ranking Member of the Crime Committee?
    Mr. Scott. Well, it is Ms. Waters' turn if she will defer. 
Okay.
    Mr. Straub. Congressman Forbes, I agree wholeheartedly with 
your comments that we need to bring multiple approaches to the 
problem of at-risk youth or gang-involved youth. There clearly 
is not one solution, and there clearly are people who are 
serious criminals who need to be incarcerated, and I think all 
of us would readily admit that.
    In speaking to Congressman Gohmert's comment about the 
incarceration and fatherhood--I am fortunate to have two 
children of my own and clearly believe that fatherhood is 
critical--I would echo Professor Ogletree's comments about the 
effects of incarceration in breaking up families and putting 
fathers in jail. Some deserve it. There is no doubt about it.
    The problem becomes this constant churning of communities 
where the community never settles down. So there really is no 
stability in the community, and I think we have to explore ways 
to reduce the ``churning.''
    Clearly, we want to encourage people and we want to 
encourage fathers to be with their family and to be good 
families, and I think the program that we talked about 
specifically in White Plains is very much about that, 
addressing family values, keeping families intact, building 
positive skills so that people can become strong members of the 
community and we can, in fact, build the social capital and the 
community capital that my other colleagues here referred to.
    Mr. Buckovich. Congressman Forbes, I also agree with you.
    For so many years in policing, we judged our effectiveness 
by the amount of arrests we made, fill this table up with guns 
and stand behind it and say, ``Look what we have done,'' but 
ignoring if it had impact on violent crime. I think we are 
starting to see that we do have to address prevention, we do 
have to address intervention, we certainly have to have 
suppression efforts, but without prevention, without 
intervention, without addressing the systemic enablers of 
crime, that we are not going to be successful in the long term.
    And we have to engage the community. I know in Richmond 
that engagement means more than just going to community 
meetings and telling them, ``This is what crime is like in your 
neighborhood.'' It means going to community meetings and 
saying, ``This is what we need from you. This is what we need 
you to do to help us and to help your community,'' and I think 
that that is the direction we have to go in.
    Mr. Flores. I think that you have a point where you are 
talking about a lot of religious groups are doing a lot of good 
work, but then I would raise the question that what happens to 
those gang members who do not believe in religion and who do 
not want any affiliation? I am not saying that they are 
approaching it----
    Mr. Forbes. I am not saying that needs to be exclusive. I 
am just saying that is one tool that is very effective, and we 
want to use all the tools we can. I mean, my point was not that 
one size fits all. It is simply that we ought to let them if 
they are showing that effectiveness have that great affect that 
they are doing in lots of----
    Mr. Flores. Yes. And I guess my second thing to that was 
just to--like you were saying is using more than just one 
approach, like it should be more than one. I mean, to 
incarcerate young people, there are a lot of approaches that 
you take to do that, too, right? There are different approaches 
that you can use to incarcerate someone. So I think that should 
be the same way, is in order to rehabilitate someone or get 
someone out of that gang culture.
    And exactly what Professor Ogletree was talking about, he 
said the social capital of it. There are a lot of people that 
want to be parents. I became a parent at the age of 17, and if 
I did not search or I did not find that social capital, I might 
have not been there either. You know, I might have been 
incarcerated, dead, or whatever not.
    So I think also the social capital issue is huge, and there 
is breaking up families and that, and this is going on, right? 
So I think this issue needs to be handled from all sorts of 
directions, not just one, just saying just, you know, 
religious-based or whatever not, but it needs to be from all 
sorts of directions.
    If you have also been incarcerated, you will find out that 
gang members might be part of this lifestyle, but even in the 
gang lifestyle, there is diversity within there as well. So 
there needs to be different angles.
    Mr. O'Connor. I will try to avoid being repetitive, and I 
would just say, Judge Gohmert, your perspective as a judge is 
one I think every prosecutor deals with. You know, prosecutors 
feel generally content, particularly when the victim of violent 
crime sees their perpetrator go to jail. It is justice. It 
restores confidence in the system. But I do not know of a 
prosecutor who does not stop and say, ``Boy, this kid threw his 
life away and is going to jail for the rest of his life.'' They 
had that MS-13 member in Maryland yesterday with a life 
sentence.
    That is why I do not know a prosecutor who does not go back 
to the local police chief or to the community groups and say, 
``What are we going to do to stop this?'' It is not just 
throwing people in jail. I mean, we have an obligation to 
enforce the law. If people commit violent crimes, we are going 
to prosecute them. That is what the public expects. But we 
prefer not to be prosecuting these cases. We would prefer if 
kids--and they are predominantly kids--made better choices.
    We also recognize that as prosecutors we are not social 
workers. We do not have the Ph.D.s, we are lawyers, and so we 
rely heavily on community groups, faith-based or otherwise, to 
tell us what can we do to stop people from coming in because, 
by the time a file lands in my office, it is too late. Somebody 
is already been victimized, and somebody is going to be held 
accountable.
    The real goal is to keep people from entering the criminal 
justice system in the first place, and that is why I think 
prevention and enforcement are not mutually exclusive. I would 
say they are strongly complementary of one another. You send a 
message through enforcement that there are consequences for 
wrong choices. Through prevention, you say to people, ``And you 
have better alternatives.''
    Thank you.
    Mr. Macy. I think that Committee Member Forbes did an 
incredible job trying to summarize what you call the matrix, 
and, you know, trauma which breeds violence has multiple 
determinants, so we need a multiply determined approach to 
decrease the violence.
    And I would argue from the social work combined criminology 
side before it gets to Mr. O'Connor's desk that we look at the 
public mental health model where we are using identification 
assessment and early intervention starting--someone brought it 
up earlier--really in preschool, daycare, to look at children 
who are already at risk for mental distress which leads to 
mental disorders, and the studies are overwhelming at this 
point.
    If you look at the United States Secret Service report on 
school shootings in the last 25 years, 47 shootings, it was all 
youth-on-youth violence, and they tried to, as the U.S. Secret 
Service is expert at doing, develop a portrait or, if you will, 
a profile of the next school shooter, and they could not do it 
because there is no next school shooter profile because there 
are so many differences.
    They found two stunning similarities among 75 percent of 
all the shooters, no matter their color, their advantage, their 
disciplinary action record, or their academic achievement. One 
was 75 percent of all shooters prior to the shooting had 
evidence of suicidality, and, two, that for almost 90 percent 
of these shooters, no adults in the school system that actually 
knew who the kid was, knew anything about the kid. So you have 
factors of mental illness and isolation.
    This carries over into kids who get conscripted into gangs 
as early as fifth and sixth grade to do the initiation, which 
is absolutely grotesque behaviors, which are high-level 
military combat techniques, which these gangs know about, to 
condition them to kill because there is a universal human 
phobia to kill so you have to condition that out of a human.
    They start very young with kids who are not just at risk 
because of their disadvantaged neighborhood or their being born 
into slavery, because they have a burgeoning mental illness, so 
I think adding to the matrix, in concert with criminology, a 
public health/mental health model is going to be crucial to 
consider.
    Mr. Ogletree. And I will be very brief.
    Congressman Forbes, you made some great points. Let me just 
take two of the points you made and try to expand on them and 
tell you where I think there is a problem with the 
overgeneralization.
    You talked about organized crime, which is a good example, 
and I think the strategy in the 1960's and beyond the 1970's to 
come up with the approach to fight organized crime was an 
important one. It was not a law enforcement effort that labeled 
every single adult who happened to live in an Italian community 
or who happened to be poor as a member of organized crime. It 
was surgical, finding the people responsible, punishing them 
very severely----
    Mr. Forbes. Especially going after the networks. Especially 
going after the networks.
    Mr. Ogletree [continuing]. And leaving the community 
intact. That is very important. So I think that example is a 
good one. They did not just target anyone who was in the 
neighborhood or anyone who ate at a restaurant. That is an 
example.
    The mother who depends on the economics, that is the broken 
family, what we talk about in our report here. The broken 
family is part of the problem.
    Another one that really is important, particularly for a 
place like Virginia, is the school system. The people who are 
in gangs are not in school, they are not at home, they are not 
under supervision, and it tells us those people who are 
finishing high school and going to college and who have a job 
are not in gangs.
    And so we know the solution. We have to figure out how to 
balance dealing with the violence of the crime of gang members, 
but also try to be preventive. It is not either-or. I am not 
saying it is public safety or social capital, it is both, and 
the idea is the proper balance. But my sense is that it would 
be much better if that 14-year-old was not out of school, was 
not suspended or expelled, was not in a single family with no 
supervision, was not unemployable because he was arrested as a 
juvenile.
    All of those things are preventable, and I just think that 
we really are not that far off in terms of our point of view, 
and my sense is that where you see a thousand gang members, I 
see a hundred, and I would rather we focus our resources on 
that 10 percent to address it substantively than to put in that 
group a lot of people who can be saved, who would be more 
productive as citizens.
    No matter what we do, we cannot kill them all, they are all 
coming back. Whether they are 20 or 30 or 40, they are coming 
back, and so if we can prevent it on the front end, which I 
think you would not oppose, I think that is a solution that 
helps all the citizens of Virginia to be safe, more people 
finishing high school, more people employed and employable, and 
a much better community.
    Mr. Scott. Thank you. I thank all of our witnesses.
    The gentlelady from California?
    Ms. Waters. Thank you very much, Mr. Chairman.
    I wanted to be at this hearing today, not so much that I 
wanted to learn more about gangs, but I wanted to be here 
because I am trying to help you and this Committee educate the 
Members of Congress about how to approach dealing with these 
gang problems, and we have to get rid of the notion that you 
lock them up and you throw the key away, you get tougher, you 
give longer sentences, you create more laws, sending a signal 
to the public that you are tough on crime.
    I really want us to do everything that we can--and I know 
this is what you are attempting to do--to try and formulate 
some good, sound, sensible public policy that is going to deal 
with these problems in a real way. We know that locking them up 
and throwing the key away has not solved anything, and so I am 
hopeful that through these hearings, we can get to basically 
what is the last paragraph of Mr. Ogletree's testimony that 
talks about trying to invest in human potential and to deal 
with developing the talents and possibilities of young people.
    Let me just say for the sake of this Committee that each of 
you brings some interesting perspective on dealing with this 
issue, but there is one thing that you kind of fall into 
because I think it sounds good about the role that the faith-
based community is playing in helping to deal with gangs and 
helping to solve problems.
    I want to assure you that there are well-intended ministers 
and preachers who would like very much to solve this problem, 
but they do not have the resources to do it, and while they may 
have a march in the community to talk about taking back the 
community, they may even dedicate a Sunday to preaching about 
it, the gangsters are not in church, they are not in prayer 
meeting on Wednesday night, and the ministers are truly not in 
the public housing projects where the gangsters are.
    So I want us not to think that somehow that we can rely on 
the faith-based community or the community to solve these 
problems. The communities are begging for help. They are 
begging for the system to do something substantive.
    I listened to the Justice Department, and, you know, I was 
hoping this would not be the kind of hearing where you would 
feel the need to have to talk about how good you are and how 
much good you are doing and how you are dealing with the 
problem because really you are not. The Justice Department, in 
my estimation, is not doing a lot with prevention.
    As a matter of fact, I am not so sure that the Justice 
Department is cooperating well enough with the local law 
enforcement authorities to do what it could be doing in dealing 
with getting some of the shot callers and the shooters off the 
streets so that we can deal with the others who have been 
described here in many different ways who have a lot of 
potential.
    I have worked with gangs--the Crips, the Bloods, the Eight 
Trays, the Grey Streeters--in South Central Los Angeles since 
the 1980's. I know and understand the community of gangs, and I 
know and understand, as many have alluded to here today, that 
many of these are the children of families that are in deep 
trouble. I had public housing projects, and many of those 
parents were dead, in jail, addicted, out on crack cocaine, 
living with grandmothers, living nowhere because the laws are 
terrible as it relates to poor children.
    Number one, in order to be on that lease after a certain 
age in public housing projects, it costs more money. So they 
were not on the list. They did not live anywhere. They lived in 
some of the vacant units with other gang members, and they had 
decided that truly was their family and that nobody really 
cared about them.
    Then I started a program in all five of these public 
housing projects in South Central Los Angeles with Wagner 
Pfizer monies. I walked the public housing projects, and we 
recruited people to come to our training programs because we 
decided, we understood that in the public housing projects, for 
some reasons, they were treated differently than other parts of 
the city. The job training programs, private industry council 
programs did not get inside those public housing projects. So 
there was no job training going on.
    We started to organize. We took over the gymnasiums. On the 
first day in Jordan Downs Housing Projects, I will never 
forget, we had a line around the corner, over 200 young people, 
who had responded to these flyers and to the talking and the 
walking that we had done about trying to change their lives.
    We discovered a lot about them. All of them had 
experimented or were dealing with crack or marijuana or some 
form of narcotics. Surprisingly, many of them had graduated at 
that time from high school because they had not gotten down to 
the age that they are now, the 14-and 15-year-olds.
    Many of them had not learned how to negotiate the 
employment system, had never been to personnel offices, none of 
that stuff. So we dealt with the old basic stuff of how you 
fill out applications, how you dress, what employers were 
expecting.
    But this is another thing that we did. You cannot do job 
training without stipends and money for people to survive on 
while they are in training. The system does not want to put the 
money into training these young people. If you are going to 
train poor children, young men who have no money, you have to 
have food, and you have to have stipends for them to have some 
decent clothing, some haircuts, other kinds of things. We put 
the stipends into the program. We trained a lot of young 
people.
    We discovered that the Howe Public Housing Project would 
get contractors from outside of the community. They would come 
in to lay cable and do other kinds of things, and the people 
who lived there did not have a shot or a chance of those jobs, 
and nobody connected them with the jobs. We finally said to the 
public housing authority, ``You will bring no other people in 
from out of the community and from other cities to do these 
jobs without at least finding out what you have here and giving 
young people a chance to do the jobs.''
    We hooked up with AT&T when they first laid their cable. We 
got gang bangers hired on those jobs. I have never seen a 
happier group of young people. They put their bandanas on their 
head, they got down in those trenches, they dug those ditches, 
they laid that cable, they made money, and some of them moved 
out of public housing.
    We went on to develop a fiber optics program at the Maxine 
Waters Employment Training Center that paid a lot of money, and 
those young people bought houses. A lot of them moved out. I 
have seen a lot of deaths. I have been to funerals. But in all 
that we did in this training, we went to the jails at night. We 
ran out to Martin Luther King Hospital when shootings took 
place to see what was going on and to respond to families.
    In addition to the training that we were doing about how to 
dress, how to fill out applications, what was expected of you, 
we had to do tattoo removal. We had to deal with the judges and 
the courts in order to remove the warrants and give people a 
chance to work them off because we discovered if you come in 
for this job training and you have warrants out there or you 
have not paid your traffic tickets, you cannot get to anybody's 
job. Part of that stuff has to be worked with.
    So I am thankful for the faith-based organizations and 
others, but it takes money. It takes real job training. 
Gangsters want jobs, and this business about they are making so 
much money dealing with drugs is a myth. There are only a few 
people who make a lot of money. Most of these young people who 
ended up with crack cocaine that they ended up getting 
mandatory minimum sentencing on, which is absolutely nuts and 
crazy, were not making a lot of money. They were out there 
surviving.
    So we have to change our thinking. Yes, there are some 
very, very bad folks out there who need to be locked up, but 
most of them are not. Given an opportunity, given a chance--we 
have in some of those high schools--60 percent of the students 
at Locke High are in foster homes, and so the system has to be 
dealt with. We have to provide the resources. We have to 
provide the support. We have to stop thinking we can lock 
everybody up.
    So I am here today to say the next hearing, Mr. Chairman, I 
hope that we will bring in a whole room full of ex-gangsters 
and gangsters and put a face on them. Let's talk to them. Let's 
find out who their mamas and daddies are or were. Let's find 
out not only have been abandoned, how many have been abused 
sexually, physically, how many have slept out without a place 
to live and no food. They are angry at the system, and there is 
nothing worse than running into a poor, young, particularly 
Black males, who have seen their mothers abused, who have been 
abused, and you think if you put a gun in their hands, they are 
not going to shoot somebody. They will.
    But we can prevent that if we are serious about investing 
in human potential. I like the way you describe it because we 
do not have the fancy sociological names for what is wrong with 
the kids, but you described it. I understood exactly what you 
were saying, and we need to take that kind of information and 
make it more available to people in ways that they understand.
    Justice Department, how much money did you have in 
prevention?
    Mr. O'Connor. I would not be able to give you an exact 
figure.
    Ms. Waters. But it was not a lot, was it?
    Mr. O'Connor. Well, I know that we just sent $1 million-
plus to L.A. in particular in the anti-gang----
    Ms. Waters. One million dollars in L.A. is like a drop in 
the bucket.
    Mr. O'Connor. I agree, Madam. I would say nationally it is 
well into the hundreds of millions of dollars.
    Ms. Waters. Well, let me tell you--he is trying to shut me 
up--it is not enough. So what we need for you to do is we need 
a Justice Department who will come in here and ask the 
President--I do not care who it is--to place in their budget 
some real money and some real resources to deal with 
prevention. Until the day that I see you come in saying this is 
how you can help us, then I do not know that you really do 
understand what the needs are.
    So let me thank all of you for being here.
    Mr. Ogletree, I think again everybody should read the 
Charles Hamilton Houston report that you just gave us and dwell 
on that last paragraph because I think it is so informative and 
it directs us.
    And I thank you for your generosity. I just had to say that 
because I know this business. I have worked with it long 
enough. I understand it. Jobs, job training, and some 
investment will do the job.
    Mr. Scott. Thank you.
    The gentlelady's time has expired.
    [Laughter.]
    Mr. Scott. The gentleman from North Carolina?
    Mr. Coble. I am belayed, Mr. Chairman. I do not have any 
questions.
    Mr. Scott. Well, thank you.
    The gentlelady from Texas?
    Ms. Jackson Lee. Thank you.
    I would like to associate myself with the Chairman of the 
full Committee's comments. This does, if you will, warrant a 
roundtable discussion, Mr. Flores, with many of those that you 
have spoken of.
    Mr. Scott. Will the gentlelady suspend?
    The Ranking Member and I have agreed to do a roundtable 
discussion. So, in response--actually, before the comment was 
made, we had been talking about that already--I think that will 
happen.
    I apologize to the gentlelady.
    Ms. Jackson Lee. Let me start again, and I know the 
Chairman will yield me the extra time to compliment him----
    [Laughter.]
    Ms. Jackson Lee [continuing]. And the Ranking Member for 
this format that would allow us to have a roundtable, and I 
would assume, Mr. Chairman, that we could engage some of the 
individuals that Mr. Flores may have commented on because all 
of us living in the real world, Professor Ogletree, have had 
our share, and although the time may not have been as extended, 
I am reminded of the intensity of gang warfare when the so-
called 1994 crime bill came out, and that was supposed to be 
relief, R-E-L-I-E-F, and I think we found out that it was not.
    I was then a Houston City councilmember that engaged with 
the gangs in our community in discussions, in calls, gang 
meetings, if you will. Guys come in and let's face to face. I 
remember there was a great deal of humor about the midnight 
basketball. In fact, I think it extinguished itself as a joke. 
Frankly, there was value to that. Those folks were off the 
street talking to each other, seeing role models.
    So I want to just pursue this line of questioning and will 
try to have all this merged in to my thoughts.
    This is a brilliant piece, Professor Ogletree. It is 
something that I will pull out of this big notebook and really 
try to frame the framework. Let me give some suggestions, if 
you would comment on them.
    When we begin in this new Administration that will have a 
new President--I would perceive that the President would be a 
graduate of the Harvard Law School. That means he is by the 
very nature bright, among others--but as we look toward the 
economic piece, we will be doing a rebuilding of the Nation's 
infrastructure. We will be doing large transit projects. Why 
can't we be creative and actually write into the legislation 
that the workforce should come from, a certain percentage 
thereof, individuals of this definition? Write it into the law.
    The second suggestion is no one even knows that we have 
provisions in the law, Mr. O'Connor, that talk about reporting 
stolen or lost guns. Do you know that there are State 
legislators who are asking me, ``Is there such a bill?'' 
because no one is enforcing whether or not local jurisdictions 
are, in fact, reporting lost or stolen guns, which fuels the 
fires of gangs. That is how they get most of their weapons. 
That is how they market them down to the border. They are 
stolen or lost, and there is no enforcement.
    That does not get necessarily to the question of whether or 
not we are unfairly incarcerating teenagers. That really is 
outside of that and would be a helpful piece of that if we 
looked at it in the right way. So let me pose these questions 
to you.
    First of all, I want to recite in Mr. O'Connor's testimony. 
And I understand that you are working with the tools that you 
have, but here is what the Justice Department is doing: FBI-led 
Safe Streets Violent Crime Task Force, Violent Gang Task Force, 
the combination of the Violent Crime Impact Teams. We have 
something called RAGE. Can you imagine? RAGE. This is a force 
established by the ATF and Prince George's County Policy and 
the FBI. The police forces' RAGE. This is something that comes 
down upon our children.
    And so I would like, Mr. O'Connor, if you would read this, 
my question to you would be if we found other solutions, would 
the Justice Department then have the data to up its monies on 
prevention? I think what you want is to see the crime stop.
    I think that the Justice Department is the place of last 
resort that people cry to and look to and say, ``Why isn't the 
Government doing anything?'' and so you form all these task 
forces that, frankly, do not work because, if they did, from 
1994 to 2008 when they passed that 1994 bill, we would see a 
magnificent change, would we not? We would see numbers that 
Professor Ogletree did not see.
    So quickly, Professor Ogletree, you mentioned two points. 
``Public onion data strongly suggests that people living in the 
United States are far more likely to support education 
prevention strategies for youth rather than prosecution,'' 
number one, and then the suppression, ``suppression policies 
and expansive law enforcement power have not proven 
effective,'' and then you proceed on (E) that talks about how 
it comes down on the people of color.
    Would you just comment?
    And I will go to you, Mr. O'Connor, as the person that 
people look to say, ``Why aren't you doing more?'' to tell me 
whether or not you would, one, read this extensively and, two, 
be able to get rid of all these RAGE task forces if we found 
data to support the premise of this.
    Professor Ogletree?
    Mr. Ogletree. Thank you, Congresswoman Sheila Jackson Lee. 
I am very happy to respond.
    I want to say a word first about the FBI and the Department 
of Justice, and I think you and Congresswoman Maxine Waters hit 
on an important point, and I think it is fair for the 
Department of Justice to say--they may say--``That is not our 
business.''
    If your business is only to be involved in fighting crime, 
we should know that because Congress keeps offering them 
opportunities to come to get money, and they keep saying, ``We 
have enough for what we are doing.'' I think it is important to 
get an answer, and maybe the answer is, ``That is not our 
business. We do not do that prevention stuff. We are fighting 
crime.'' It would help us to know.
    In terms of what we are doing, what the reports say, let me 
respond to the first thing. One of the important examples of 
social capital is that we have to figure out how to find a way 
to employ, not over other employable people, but to employ the 
hundreds of thousands of men who have served their time and who 
are coming out of prison and who need a chance to work 
somewhere.
    Let me give you an example. When we talk about crime, if 
you look at Houston, New Orleans, Oakland, and Newark, what is 
interesting about those four places, are ports, ports that 
employ thousands of people, and that the terrorism law now 
prohibits even the consideration of anyone. The question is 
whether or not Congress will, if you really want a solution, 
look at whether or not somebody can paint a fence or cut some 
grass or do something that does not undermine national 
security, whatever it might be, because that is a place that we 
are not going to reduce employment, we are going to increase 
employment, and what a better way to start training people.
    The Second Chance Act that--not the one that was passed, 
but the one that you may recall a decade ago--Mayer Ed Koch and 
Reverend Al Sharpton and I came and talked about that 10 years 
ago. What you passed was not what we proposed. It was looking 
at prior offenders, making them go through drug treatment, 
making them prove that they are eligible for employment, and 
then they would not be rejected That is exactly right, and that 
is the second point.
    The final point is that the public really wants to be safe.
    Ms. Jackson Lee. I am sorry. Would you agree then that in 
major infrastructure and in funding legislation dealing with 
job creation, we should consider a piece that directly--you 
know, we have goals for minority businesses and make sure there 
is no discrimination because these are Federal funds--goes 
ahead and targets that segment of the population?
    Mr. Ogletree. Indeed. In fact, as you know, we have goals 
in our funding for Iraq to make sure that that money goes to 
Iraqi citizens. There is an affirmative step there. And it 
seems to me here is the example where we can do something that 
is forward looking by saying, rather than knowing that the 
opportunity costs of having you back in prison, we are going to 
continue to work not paying much, but paying enough to make it 
productive as one of those goals, and the public will be happy 
to know that their tax dollars are not going to incarcerate 
somebody. They are going to make them employable, law-abiding, 
productive citizens.
    I think that is a very good idea, and I think it is the 
kind of thing that as Congress, not being soft on crime, being 
tough on crime, punish souls and send them to jail, but when 
people get out, make sure they can be productive parts of the 
community, and I think that is a very important forward-looking 
idea, and that is what we talk about in the report.
    And it is not one or the other. We are saying it is both. 
You have to be tough on crime, focus on the worst criminals, 
but also find a way to be preventive so that you do not 
increase that list and be proud of the fact that we have not 
one million in the 20th century, but two million people in 
jail. That is not progress. That is a sign of a failed system, 
and I think we need to recognize it and figure out how to fix 
that failure.
    Ms. Jackson Lee. Mr. O'Connor, reading this and, also, if 
we found that the data in here would support another way to 
handle this increasing crisis in juvenile crime or gangs, the 
Justice Department has a preventative element to it, would you 
work with the Congress? Would you believe the Justice 
Department--because, obviously, you are here at this timeframe. 
We do not know what your future is--would be able to work with 
us on this matter?
    Mr. O'Connor. The department would be certainly willing to 
work on any prevention-related programs. I mean, I think, if I 
may, with the Chairman's deference answer one thing, I do not 
know where these task forces get their names, I certainly do 
not come up with them, but that is not about prevention, 
unfortunately. That is after a police chief----
    Ms. Jackson Lee. You are right.
    Mr. O'Connor [continuing]. Or a mayor has come to us and 
said, ``There have been 15 homicides. Help. Help us find out 
who did this and get them off the streets.''
    I looked around my office in Connecticut when I got one of 
those calls. I do not have one social worker in the U.S. 
attorney's office in Connecticut. I do have 75 prosecutors and 
teams of FBI agents, and I think it is just important to 
understand that when it comes to prevention, the department's 
role is funding prevention efforts by others, not preventing it 
itself. We do not have social workers we send into communities. 
We look for people who are on the ground and do that.
    So I cannot commit to saying we will not have task forces. 
The public expects that, the mayors, the governors, the 
congressmen, anyone who is concerned, community groups. We have 
to do that, and I think that challenge for us is to be able to 
do both, to continue to fund the many prevention programs, some 
of which were talked about here, but at the same time be able 
to adequately respond to crimes after they occur.
    Ms. Jackson Lee. But I think what you are saying--and I 
will conclude on this--is----
    Mr. Scott. If the gentlelady will suspend, we have a markup 
that has been scheduled, and we want to do that, and then we 
will come back to finish up the questions.
    Ms. Jackson Lee. I will conclude my sentence, and then I 
will yield back.
    Mr. Scott. Go ahead.
    Ms. Jackson Lee. And thank you, Mr. Chairman, for your 
indulgence.
    Let me just conclude by saying how I interpret what you 
have just said, is, one, you will read this document, but there 
is a prevention component in the Justice Department, and so 
Congress can give the Justice Department more money, and you 
would be collaborative.
    I think the final word is if the crime of 15 homicides did 
not occur in that jurisdiction that you are speaking of, they 
would be just as accepting of the prevention dollars to not 
have those already homicides, and that is what we want to do, 
get in front of it to help these gang members get out of what 
they are doing and to solve these problems ahead of time.
    I yield back, Mr. Chairman.
    Mr. Scott. Thank you.
    And we are going to suspend the questions for just a 
minute. We had some previously scheduled business.
    [MARKUP]
    Mr. Scott. With that, the markup is concluded, and we will 
resume the questioning of the witnesses.
    Does the gentleman from Ohio have questions?
    The gentleman from New York?
    The gentlelady from Wisconsin?
    Just for a very brief second round, I would like to ask Mr. 
O'Connor a question. We have heard several references to the 
Second Chance, to how to deal with returning people who have 
served their time. We passed the Second Chance Act. Obviously, 
the way the Federal Government works, you cannot possibly have 
gotten any rules and regulations to implement the bill yet. 
Could you tell us the status of the implementation of the 
Second Chance Act?
    Mr. O'Connor. Mr. Chairman, I do not know, but I certainly 
can get back to you.
    Mr. Scott. If you could provide that for the record----
    Mr. O'Connor. I will.
    Mr. Scott [continuing]. We would appreciate it.
    And you mentioned that all the U.S. attorneys had gang 
prevention summits. Do you have the information gleaned from 
those summits?
    Mr. O'Connor. I do not know if there was any sort of formal 
effort to coordinate whatever information was gleaned. I can 
certainly check back with the Executive Office of U.S. 
Attorneys and get back to you. I suspect that every district at 
least reported back in writing as to what they did, who 
participated, but beyond that, I just do not know. But we can 
find that out for you.
    Mr. Scott. Thank you.
    And for Dr. Straub and Major Buckovich, the Youth PROMISE 
Act contains a provision we call the YOPs, youth-oriented 
policing. Are there strategies the police departments can use 
to more effectively deal with juvenile crime?
    Mr. Straub. Mr. Chairman, the youth police initiative that 
I spoke about in White Plains deals just with that issue, and I 
applaud your work on the Youth PROMISE Act. Clearly--and a 
number of people have spoken about it--one of the biggest 
issues is building relationships with at-risk youth between the 
police and those youth. If there is not an opportunity for them 
to discuss very difficult important issues--race, violence, 
respect--those conversations never happen. We never have the 
chance for de-escalation. We never have the opportunity for 
either side--and I hate to say either side--to come to an 
understanding of each other.
    So I think the youth police initiative, which has been 
very, very effective in White Plains and now is being 
replicated in a number of cities, provides that opportunity to 
bring at-risk young men and women together with police officers 
to have those very serious discussions that typically as a 
society we do not want to have. We do not want to talk about 
race, we do not want to talk about respect, we do not want to 
talk about violence, and unless we bring the parties together 
and have those conversations, in my opinion, we are not going 
anywhere.
    Mr. Bukovich. And I agree. I think we have a window of 
opportunity with youth between about ages 17 and 14 or 14\1/2\ 
to really make an impact. I think it is between those ages 
where they start to, especially youth in high-risk communities 
or who are at high risk, have interactions with the police, 
sometimes negative, and I think that we need strategies, when 
we are presented with those opportunities, to try to impact 
them in a positive way.
    I know that certainly in Richmond we are constantly looking 
for ways to provide positive role models for the youth, whether 
it is through sports, such as our police athletic league, or 
through some of our truancy prevention programs, to really put 
police in contact with these at-risk youth.
    Ms. Waters. Will the gentleman yield?
    Mr. Scott. I yield.
    Ms. Waters. Mr. Chairman, the perception of the police 
officer is developed on the street, and it is not that you get 
a group of kids together and begin to talk with them. It is how 
you treat them on the street.
    When you have 14-, 15-, and 16-year-olds who are getting 
into trouble for the first time and they are made to lie on the 
sidewalk, they are handcuffed, they are thrown up against the 
car, they internalize what they are being told by others, that 
the police hate them, they are racist, they do not like them, 
on and on and on.
    There was an incident in one of my communities where some 
13-year-olds were literally breaking into a vacant house on the 
block. I knew the police, the sheriffs. They were called. I met 
them over there. They picked up the young people. I asked the 
sheriffs to please let's get their addresses, let's go to their 
homes.
    I went with them to their homes. The parents were shocked. 
They did not have any idea that this is what these kids had 
been doing, but I have since been in touch with them over the 
years. All of these young people are doing fine.
    Mr. Scott. Would the gentlelady suspend? My time has 
expired. On this round, we are going to keep very close to the 
actual time. My time has expired.
    It is the gentlelady from California's time. You are 
recognized for 5 minutes.
    Ms. Waters. Thank you. And I will yield back my time to 
you, Mr. Chairman.
    But let me just say what those parents have told us is that 
having been apprehended and brought home probably did more in 
teaching them the lesson of not breaking into a house, not 
going on the other property. It left a great impression about 
the police who came to their homes, brought them home, instead 
of taking them to jail.
    So I just wanted to say that because I respect the idea 
that you are trying to build relationships and you talk about 
getting kids together and talking to them, but it really does 
not happen that way. It happens based on how they are treated 
with their early contacts with the police.
    The statistics are such that by the time an African-
American male is 17 years old, he has been in touch with the 
police at least--I think it is, Mr. Ogletree, at least two or 
three times--and those experiences are what really helps them 
to understand or think they understand who the police are and 
what they are all about.
    So, if I can suggest when you talk about policing and 
youth--first of all, I like intervention programs and 
prevention programs, which the Justice Department used to have. 
I do not know if they have them anymore--when kids get in 
trouble for the first time, they are not taken to jail. There 
are alternative ways to deal with them in the community.
    That does more in developing relationships than going to 
even a church where they have gathered a group of kids to talk 
to because usually those are not the kids that need the talking 
to.
    I yield to the Chairman.
    Mr. Scott. Thank you.
    I did have another question that I wanted to get in, and 
that is that the Juvenile Justice Delinquency Prevention Act 
requires us to focus on disproportionate minority confinement.
    The chart over here shows the present gang-related 
statutes. The red bars are the percentage in the various 
statutes that are minorities where it shows, obviously, that a 
disproportionate number of minorities are prosecuted under 
those gang statutes.
    My question is what passage of some of the alternative get-
tough bill would do to minority confinement first, then the 
definition of gang, and also the conduct of a trial that allows 
a prosecutor to bring in all kinds of community crime and 
mayhem. The suppression bill says part of the definition of a 
gang member involves people who have committed, not convicted 
of, committed crimes which allows you essentially to try that 
case along with everything else in the trial in chief, what 
that might do to disproportionate minority confinement.
    Mr. Ogletree?
    Mr. Ogletree. The one obvious thing it will do, Congressman 
Scott, looking at that chart is that it will go off the chart. 
I mean, the numbers will be so catastrophic that you will not 
even be able to confine the rate of disparity based on race in 
terms of how youth are being treated in our system.
    The disparities are national, but, ironically, they are not 
geographic. When I say that, it is not a southern problem. You 
will find it in the Northeast. You will find it in the Midwest. 
You will find it in North and South. Even when there are small 
concentrations of minority communities, the overrepresentation 
of children of color in this system is growing exponentially.
    We have identified some of the problems. Some of the 
problems are that these kids are being suspended and expelled 
from schools. That is that the educational system has become 
part of the criminal justice system. There are police on the 
property. There is a whole security apparatus. A police officer 
has usually unfettered discretion to decide who stays in 
school, who is suspended, who is expelled, and when they are 
out of school, they are out of school not just for the day, but 
until their case is resolved, which means they miss 6 months in 
school, and then they cannot repeat that grade.
    So this is a problem where we know there is a solution, and 
the juvenile court judges are calling us asking for help, 
superintendents are calling us, teachers are calling us. They 
all are saying there is a problem with these statutes that 
require judges to have no role, and the only role is the police 
officer on the school grounds, and it creates this kind of 
disparity, and it only makes the overrepresentation of children 
of color even greater in our system.
    Mr. Scott. Thank you.
    The gentlelady from Texas?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And let me continue the line of questioning and thought 
processes that we have had.
    And, Professor Ogletree, what I would offer is to use 
Harris County as a laboratory, and the reason I say that is 
because using State laws, our juvenile court system has 
discretion, and what we have found unscientifically is that 
more youngsters of the majority population--of course, that is, 
you know, somewhat of a metaphor now because who knows who the 
majority is--who are Anglos are sent home or parents are called 
versus Hispanic and African-American youth.
    Might I also suggest that in this economic market, this 
crisis where adults are competing for the typical youth 
positions, summer jobs at our franchises where you could always 
count on getting your summer job, and the loss, for example, in 
our community of a major entertainment center, like a Coney 
Island, which has been lost or whatever in New York, which used 
to be a central spot for hiring of our youth, is gone.
    So the scheme of things has turned upside down and, 
therefore, where do they go and what do they do? So a child 
that gets out of school who has no history of criminal 
activities, the long, hot summer, drives them, unfortunately, 
into a circumstance that may alter their life.
    And let me add one other point. I remember having Senator 
Paul Wellstone during his life visit--I will use Harris 
County--in our juvenile detention facility where he found, just 
by conversation as we were walking through, numbers of young 
people who had mental health needs that are now being detained 
in these facilities, and the mixture of volatility and criminal 
activity and someone who needs some other kind of help only 
sends that youngster out on the street again, not finding the 
services that they need.
    So I would want to ask you to comment on this whole 
question of a comprehensive approach to services. I think we 
spoke earlier about jobs, but the fact that we have turned this 
society upside down. There is not a nurturing and caring 
society. We are so frightened by this potential of gang 
warfare--and, certainly, gangs have guns, and I know police 
persons are frightened of their lives as they project the image 
of gangs--and so suppression and using these heavy laws do not 
leave any pathway, if you will, for some of the thoughts that 
you made, if you would comment on that.
    And, Mr. Flores, if you would comment, what would happen if 
we turned the corner and had a massive structure of mental 
health services, employment--I think Professor Ogletree 
mentioned ridding ourselves of stigma, but if they are as young 
as 13 or 14, we might not be stigmatized totally yet--but 
anyhow moving them in that direction. I am not sure if you are 
familiar with MS-13, but I think I would like to make sure that 
we distinguish ourselves for some of the sort of hardened track 
that people tend to go on after they graduate from these baby 
crimes.
    Professor Ogletree?
    Mr. Ogletree. Thank you.
    Let me just say one thing taking a step back. The research 
that we do suggests something very different than what I have 
heard today. That is if we are looking at people who are 14 to 
17, that is too late. We have to look at them at 9 years old to 
13 when we still have a chance to keep them in school, keep 
them from dropping out, have a network there. So I think we 
have to, unfortunately, step back in a real sense and make a 
difference.
    And then some of the data--the mental health is just 
pervasive. We looked at a number of States, and many of the 
Black and Brown boys in particular in the juvenile justice 
system, almost two-thirds, have some mental health crisis that 
has been undiagnosed--too quiet, too active, those with ADHD 
and a whole series of other medical mental health issues that 
are being ignored, and, in fact, they have become aggravating 
rather than mitigating circumstances because, instead of trying 
to treat those, they become reason to detain, et cetera, as 
opposed to trying to find the right facility. So that is a very 
important issue to study.
    Having said all that, there is some good news. My wife, Pam 
Ogletree, is the president and CEO of something called 
Children's Services of Roxbury. It is very like many other 
programs dealing with child welfare, but on their own, the 
young people started a group called YPP, youth-to-police 
partnership, and these are the young people who have been 
harassed by police, who could not get along with police, and 
they have decided to tell them why I run when you come after 
me, why I do not want to talk to you on the streets, and it is 
really a remarkable thing because they are out in the streets 
talking to other youth, ``Do not be afraid. Come to us because 
we need to work with ways the police can be much more 
effective.''
    Harris County is a very good example as well. There is good 
anecdotal data, but there is a big enough set of data. If we 
could have access to that to talk about both, how the young 
people are in the system earlier and how to increase the ideas 
of discretion, and it really seemed that everything we are 
talking about today is tied to the educational system.
    If we want to fix the issue of gangs, fix the issue of 
criminal justice, juvenile justice, we must first start with 
saying the school system is a haven of peace, educational 
opportunity, and of opportunity to move forward. If we do not 
do that, no matter what we do, we are going to find ourselves 
talking about another violent shooting. We are going to have 
that happen because we have not addressed the fundamental 
problem of making the educational system safe for our children 
and making them feel that they are protected.
    Ms. Jackson Lee. Mr. Flores, can you just quickly answer? I 
will just put it this way. Intervention--would that be a 
positive step on some of these gangs for youngsters who are as 
young as 9 years old and jobs for that age group that may be 14 
to 17?
    Mr. Flores. Well, first, for your first question about 
affiliation with MS, I do have a long history with----
    Ms. Jackson Lee. I did not ask you about your affiliation.
    Mr. Flores. No, not my affiliation, rather my----
    Ms. Jackson Lee. Your knowledge.
    Mr. Flores. The knowledge of them and, actually, and, you 
know, my family varies with people from different gangs, so I 
am not going to say who is from where, right.
    Ms. Jackson Lee. Absolutely.
    Mr. Flores. But I think I am very knowledgeable of what 
they do and who they are.
    I think that intervention at the early age is very 
important, but I think what also is important is that even at 
an early age, as an 8-year-old, 9-year-old, you already have a 
sort of vision of like a cop or of a police officer or anything 
like that. So even at an early age, you might be refrained from 
going into these programs that are run maybe by a police 
station or are run maybe by, you know, the Department of 
Justice or whatever it is that they are run by.
    So I think also the importance is for these departments to 
look for people who look like them, right, and I think that is 
a key that is a success to organizations in which I work with 
in Los Angeles, is looking for people that also look like them 
so those barriers can be broken down already, of course, 
because there are a lot of kids already afraid.
    I have a 3-year-old son that already knows to be scared of 
a cop. I do not know where he got it from. I know I am not 
teaching him that, but, you know, me not being with his mother 
and he is into the police, I do not know what he is learning 
over there, right, in terms of knowledge of police or whatever 
not.
    So I think in order to break these barriers down, we have 
to use different methods, searching for people that look like 
them, and that is one of the keys that happened the 
transformation that I had, as well as transformation of other 
gang members that I know, is that there were people that looked 
exactly like them, but they were giving them different 
information, rather than the information that is being kicked 
or being brought in by, you know, gang organizations or 
whatever you want to call them.
    Mr. Scott. Thank you.
    The gentlelady's time has expired.
    The gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman.
    Members of the panel, last week, the Bureau of Labor 
Statistics released data on the unemployment situation in May, 
and to make a long story short, a net loss of 49,000 jobs for 
the month of May, 324,000 jobs lost so far this year. So 
unemployment has risen at the highest rate the last 20 years. 
Housing foreclosures are rampant, and people are losing their 
homes. The economic situation is tight.
    How does the uncertainty of our economic posture--and it is 
really getting bleaker every day, gas prices going up every 
day, record highs--what impact does this economic condition, 
which is deteriorating, have on the prospects for gang 
development, starting with you, Professor Ogletree?
    And I would say of there could be a connection between the 
economic conditions and the rise of gang affiliation, does it 
make sense to continue to lock people up, or should we do more 
in terms of social services?
    Mr. Ogletree. Well, Congressman Johnson, you are absolutely 
right, and you and I both as lawyers and particularly working 
in this system have seen the impact of the lack of education, 
lack of employment, and it is even tougher with people who have 
gone through the system, which means they have a record, they 
cannot get a job, they are not eligible. That becomes a huge 
problem.
    The other point that has impact not just to young people, 
but these loss of jobs of their parents. Jobs are being moved 
away. It is a huge problem that is being exacerbated by the 
current economic environment and foreclosure of homes. All 
that.
    And the interesting thing is that it is not just a race 
issue. This is striking poor White families, the urban 
families, whether they are Black or White or Brown, and I think 
it is a problem that I hope that not only this Congress, but 
the next Administration will focus on. It is one of the pink 
elephants in the room that here we are, we are called jobs, 
that means we have people on the street.
    Washington, D.C., tonight, it is probably 90 degrees 
outside or hotter. It will be 85 tonight at 11:00, and there 
are a lot of young people that are going to be walking the 
streets, not because they are looking for trouble. There is no 
air conditioning in the house, there is nothing else to do, and 
they become targets, and we are witnessing right now the very 
problem that we are talking about here in our Nation's capital.
    And if we do not see that these kids who cannot get a job, 
who do not have a home with air conditioning, who are not in 
school, then we are the problem, and labeling them all as gang 
leaders is not going to answer it, and I think your idea of 
looking at these unemployment statistics, looking at this 
subprime lending and foreclosures tells us it is not a Black 
problem or a Brown problem, it is an American problem.
    I hope even though we are talking about gangs, if we want 
to solve the problem, we need solutions that address the whole 
family and the whole community. That is what we have not done 
in a comprehensive and meaningful way.
    Mr. Straub. I think the other thing that we are going to 
see is a tremendous amount of frustration which is going to 
further exacerbate the existing problems.
    One of the issues that we really have not talked about at 
all is the whole issue of domestic violence, and I think as we 
see people become unemployed, as we see people lose their 
homes, as we see tremendous frustration levels build, there is 
going to be a propensity to increased--and we have seen it 
already in White Plains--incidents of domestic violence, and 
that is a whole series of issues.
    It is not just the partners that are involved, but it is 
the children who witness violence in their home, and what does 
that say to them as they go forth in their development, having 
witnessed mother, father or other partner type relationships 
where there is violence, and I that is something that we are 
not talking about. We are talking about kids on the street or 
we are talking about these issues, but domestic violence, I 
think, is just something that clearly is going to be very much 
aggravated by the dire economic situation that we are looking 
at.
    Mr. Bukovich. I think another important factor is 
communications between confinement facilities and re-entry 
teams. As these gang members come back to their neighborhoods 
where the job opportunities are even less than when they were 
confined that there has to be information sharing between the 
confinement facilities and the intervention and re-entry teams 
that are trying to get these gang members that have a host of 
issues back into their neighborhoods.
    And also the programs have to address the parents. You 
cannot just focus on the youth, but the programs have to 
address the parents, parenting issues, and economic issues that 
the parents are facing when the child comes back into their 
home.
    Mr. Flores. I think that the unemployment issue is huge and 
is creating larger gangs, if you want to call it, because I 
think that a lot of these gang members are young members. Their 
parents are being laid off, right, and I think that that also 
pushes more young people, even people in high schools, to look 
for jobs, and I think that it is important for someone in high 
school to not be thinking about a job, right, to more be 
thinking about his or her education rather than thinking about 
a job, and unemployment is a huge issue that is affecting the 
large number of the gang growth and things like that.
    And I think one of the things that Maxine Waters talked 
about was stipends. I work in an organization that we stipend 
our young people for coming to school, and I think if we had 
more programs like that, it would alleviate some of that, some 
of the reasons why unemployment is affecting this issue.
    Mr. O'Connor. I mean, I think it is undisputed that there 
is an economic link to crime rates. Just for the sake of time, 
I do not have much more to add than that, but, certainly, that 
is a factor in anyone's mind, that as the economic forecast 
appears, one has to be sensitive to the link there.
    I am not a social scientist, and I could not be precise, 
but it goes without saying that that would certainly heighten 
any concerns, any prosecutor's concerns. It is going to create 
an environment where people tend to be more angry. Anger tends 
to spout more violence.
    Mr. Macy. I think it is a wonderful connection you are 
making because I think it is no accident that the Subcommittee 
is titled Crime, Terrorism, and Homeland Security, and I am not 
an alarmist nor am I a conspiracy theorist, but having worked 
in the Middle East over the last 7 years and asked to come and 
look at the destruction, the psychosocial degradation after the 
second Lebanese war, if you are familiar with the role that 
Hezbollah played in that war, and we saw from the media 
standpoint how onerous and terrible it was that the citizens of 
Lebanon harbored the Hezbollah militants.
    But, in fact, were you to take a closer look, Hezbollah, 
which is organized around violent gang principles, is, in fact, 
the social service structure for the Country of Lebanon. So 
they get Lebanese children to school. They get the Lebanese 
families essentially health insurance. They are the ones that 
actually back the poorest of the citizens.
    It is no mistake, in my consultancy work with the 
Department of Homeland Security in New Jersey, they are looking 
at similar recruitment tactics, and I think it plays out 
probably more than just in New Jersey where these, as Committee 
Member Forbes terms them, networks of gangs are looking to take 
care of younger folks because, at this point, there is a gap 
between how our Government and our State and municipalities are 
unable to take care of them. They slip right into that gap very 
quickly and offer a false sense of security and safety.
    And so I think we have a bigger issue on our hand than just 
increased violence. I think we have a security issue in the 
long run, and I think that we are not going to arrest our way 
out of this. We are going to have to put significant funding on 
the table for psychosocial servicing that is broadband and 
includes biopsychosocial approaches and includes mental health 
services, along with looking at justice for the 
disproportionate minorities who are incarcerated.
    Mr. Johnson. Thank you.
    Mr. Scott. Thank you.
    Has the gentleman finished his questions?
    Thank you.
    I want to thank all of our witnesses for their testimony 
today. We have heard about the importance of long-term 
solutions. We heard about domestic violence.
    One of the things that we have had from other hearings is 
the success of nurse-family partnerships who deal with 
newborns, family with newborns, and it is my understanding that 
by the nurses coming and visiting, working with the family 
through the last few months of pregnancy, first year of life, 
that 18 years later, children in that program are significantly 
less likely to get in trouble.
    I think it says domestic violence could be reduced, child 
abuse certainly would be reduced, and we know there is a strong 
correlation between child abuse and future violence. So we know 
we have to take a long-term approach, and we heard through the 
entire hearing that the criminal code has enough in it to deal 
with the serious crimes.
    We heard an example of a gang member cut somebody's arm 
off. Well, I think every State has a criminal code sufficient 
to deal severely with someone who chops somebody's arm off, but 
we have heard not only how effective prevention strategies can 
be, but that the suppression strategy is not only ineffective 
in reducing future crimes, it is made situations 
counterproductive, that it actually may lead to more gangs.
    And we lock up already more people proportionally than 
anywhere else on earth. This chart shows the United States 
number one in the world, and the minority community getting 
locked up at rates that would justify an international human 
rights investigation that you would target a community with 
rates such as the one shown on that chart--2,200 per 100,000 in 
the minority community; the far right Brown line, almost 4,000; 
the top 10 States in minority confinement, 4,000 per 100,000--
when most countries lock up between 50 and 200 per 100,000.
    So, obviously, the criminal justice system is doing all it 
can do, but what the chart also reminds us of is that the 
Children's Defense Fund calls the present system the cradle-to-
prison pipeline. We know, as Professor Ogletree has said, if we 
get people in the cradle-to-college pipeline, those children 
will not be getting in trouble.
    So we want to thank all of our witnesses for your 
testimony.
    Members may have additional written questions for our 
witnesses, which will forward to you and ask that you answer as 
promptly as you can so the answers may be part of the record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    Without objection, the Committee now stands adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Today, the Subcommittee is holding the third hearing this Congress 
on what approaches work to stop gang crime.
    Some think that the most effective approach is to enact more laws 
that would result in more people being locked up. Others support 
programs that help prevent young people from getting involved with 
gangs in the first place.
    I hope that today's witnesses will address both approaches and help 
guide us in determining what will best stem the tide of gangs. To that 
end, I have three suggestions.
    First, I believe it is particularly important that we address the 
fundamental reason why young people are drawn to gangs. We need to 
understand why our youth often feel more of an allegiance to their gang 
than they do to their own families.
    Second, we must not ignore how communities are impacted by gang 
crime. Whether you live in urban or rural America, you have the right 
to feel safe from violence in your home.
    However, feeling safe in your home should not mean locking up every 
young person and throwing away the key. We need to find a balance that 
aims for the best result for our young people as well as for the 
communities where they live.
    As Professor Olgetree's recent study points out, we spend anywhere 
from $35,000 to $70,000 a year to incarcerate a juvenile in this 
country. A recent Pew Foundation study points out that 1 in every 100 
Americans are now behind bars, with 1 in every 9 young black males 
behind bars.
    Regardless of whether your motivation is to save money or to save 
lives, we should reflect upon whether our resources are being used 
wisely by sending so many people to prison.
    And, third, while it is critical to address gang crime, we must do 
so in a way that will not sacrifice basic principles of fairness and 
justice. We must deal with gangs in a way that does not lead to racial 
or age-related profiling, with disproportionate numbers of young 
Americans being unnecessarily funneled through the criminal justice 
system based on their race or ethnicity, or on their youth.
    More broadly, we should not be so quick to throw away our young 
people. The Supreme Court has acknowledged that there are fundamental 
differences between adults and adolescents that impact the way a young 
person thinks and reasons. We should also acknowledge these differences 
as we consider how to deal with gangs.
    With that said, I'd like to thank each of the witnesses for 
agreeing to appear before us today. I look forward to hearing your 
testimony and working with you to develop positive solutions to our 
gang problems.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you, Chairman Scott for convening today's very important 
hearing addressing gangs. Specifically, this hearing will focus on 
determining an appropriate response to gang crime in the United States. 
Witnesses will discuss alternative approaches to stemming violence, the 
effectiveness of various approaches and the appropriateness of federal 
law enforcement in criminal activity traditionally addressed by the 
states. Although there are several gang bills currently before 
Congress, those are not the primary focus of today's hearing.
    Today's hearing will focus primarily on the Charles Hamilton 
Houston Institute for Race and Justice (Harvard Law School) report, No 
More Children Left Behind, which assesses the most comprehensive and up 
to date studies on the issue of evidenced-based crime reduction 
strategies, and applies the information to the major legislative 
efforts pending in the Congress to address the issue. Witnesses will 
also address law enforcement approaches to addressing crime, and their 
effectiveness.
    There will be a single panel of witnesses. Professor Charles 
Ogletree, Jr, Professor and Director of the Charles Hamilton Houston 
Institute for Race and Justice at Harvard Law School will present 
findings from their report released in March 2008, entitled, No More 
Children Left Behind Bars. This survey report reviewed current research 
about child development and educational interventions in an effort to 
curb youth violence and gang affiliation.
    Ely Flores, a former gang member turned community activist, will 
testify about his work at LA CAUSA YouthBuild (Los Angeles Communities 
Advocating for Unity Social Justice and Action). Mr. Flores urges 
members of Congress not to give up on gang members, but instead to look 
for ways to incorporate them into functioning within the legal social 
structure.
    Dr. Robert D. Macy, Ph.D., founded the Boston Children s 
Foundation, a public charity, to address the ongoing gang violence and 
suicides in the 56,000 children enrolled in Boston Public Schools, will 
testify about anxiety disorders and traumatic stress disorders, the 
basis for much of the maladaptive gang behavior, which are highly 
amenable to treatment.
    Dr. Frank Straub, Ph.D., Commissioner of Public Safety for the City 
of White Plains, NY, watched as his city became gentrified, and how 
that affected crime and gang activity. Ultimately the police department 
and the city s youth bureau partnered with the North American Family 
Institute (NAFI), a Massachusetts-based social service organization, to 
develop and implement a successful program to reduce violence and 
improve community relations.
    Major John Buckovich, Richmond Police Department, will testify 
about the GRIP program (Gang Reduction and Intervention Program). The 
Office of Juvenile Justice and Delinquency Prevention (OJJDP) allocated 
2.5 million dollars to four pilot cities Richmond, Virginia; Los 
Angeles, California; Milwaukee, WI; and North Miami Beach, FL. The 
police department works in conjunction with multiple private and public 
organizations to focus on: primary and secondary prevention, 
intervention and lastly, direct gang suppression. Richmond has seen as 
decrease in the amount of violent crime by 24% since 2006, and 
homicides have decreased from 86 in 2005 to 55 in 2007.
    The FBI's Uniform Crime Reporting Program indicates that violent 
crime specifically robberies, homicides, and aggravated assaults has 
increased 1.9% over 2006; whereas some types of crime rapes, burglaries 
and auto thefts have continued to fall. The overall crime rate violent 
crime and non-violent crime considered together is the lowest it has 
been in 30 years. The top five cities suffering from crime increases 
are St. Louis, MO, Detroit, MI, Flint, MI, Compton, CA, and Camden, NJ.
    Some crime experts suggest that the increase in violent crime is 
linked to an increase in juvenile crime, specifically gang crime. In 
Oakland, police officials attribute recent rises to an uptick in Latino 
gang violence, more turf wars between drug gangs and an increase in 
violence among juveniles who escalate minor disputes to homicide. 
However, other experts disagree that gang activity is on the rise. 
According to a recently-released report from the Justice Policy 
Institute (JPI):

        There are fewer gang members in the United States today than 
        there were a decade ago, and there is no evidence that gang 
        activity is growing . . . the most recent comprehensive law 
        enforcement estimate indicates that youth gang membership fell 
        from 850,000 in 1996 to 760,000 in 2004 and that the proportion 
        of jurisdictions reporting gang problems has dropped 
        substantially.

    Researchers Kevin Pranis and Judith Greene, authors of the JPI 
report, conducted a literature survey of all gang research. They found, 
that there is no consistent relationship between law enforcement 
measures of gang activity and crime trends. For example, an analysis of 
gang membership and crime data from North Carolina found that most 
jurisdictions reporting growth in gang membership also reported falling 
crime rates. Dallas neighborhoods targeted for gang suppression 
activities reported both a drop in gang crime and an increase in 
violent crime.
    Some believe that demography has played a role in the crime 
increase. Some cities with rising juvenile populations are experiencing 
a rise in juvenile crime. In other cities, criminals are being released 
from prison after serving lengthy sentences imposed in the 80's and 
90's. Often these newly released people never received treatment while 
incarcerated and there are few, if any, services available to them on 
the outside.
    Another explanation for the violent crime increase is diminished 
federal funding of local police forces. For example, under President 
Clinton the COPS program reached a high of $2.5 billion; in comparison 
to 2006 federal funding which was $894 million. The change in funding 
priorities is attributed to increased funding for terrorism instead of 
bread-and-butter crime fighting, according to Los Angeles Police Chief 
Bill Bratton, past president of the Police Executive Research Forum.
    Again, I welcome today's witnesses. I yield the remainder of my 
time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
